APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
[filed December 8, 2020]
_______________________________

FAYE STRAIN, as guardian of Thomas Benjamin
Pratt,
Plaintiff - Appellant,
v.
VIC REGALADO, in his
official capacity, et al.,

No. 19-5071
(D.C. No. 4:18-CV-00583TCK-FHM)
(N.D. Okla.)

Defendants - Appellees
and
BOARD OF COUNTY
COMMISSIONERS OF
TULSA COUNTY,
Defendant.
_______________________________

ORDER
_______________________________
Before HARTZ, MATHESON, and CARSON,
Circuit Judges.
_______________________________

2a
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court:
Christopher M. Wolpert, Clerk
/s/ Christopher M. Wolpert, Clerk

3a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
[filed October 9, 2020]
_______________________________

FAYE STRAIN, as guardian of Thomas Benjamin
Pratt,
Plaintiff - Appellant,
v.

No. 19-5071

VIC REGALADO, in his
official capacity, et al.,
Defendants - Appellees
and
BOARD OF COUNTY
COMMISSIONERS OF
TULSA COUNTY,
Defendant.
_______________________________
Appeal from the United States District Court
for the Northern District of Oklahoma
(D.C. No. 4:18-CV-00583-TCK-FHM)
_______________________________

4a
Robert Blakemore (Daniel Smolen with him on the
brief), Smolen & Roytman, Cincinnati, Ohio, for Plaintiff-Appellant Faye Strain.
Sean Snider (Micah B. Cartwright with him on the
brief), Johnson Hanan Vosler Hawthorne & Snider,
Oklahoma City, Oklahoma, for Defendants-Appellees
Armor Correctional Health Services, Inc., Curtis
McElroy, D.O., Patricia Deane, LPN, and Kathy
Loehr, LPC.
____________________________

Before HARTZ, MATHESON, and CARSON, Circuit Judges.
____________________________
CARSON, Circuit Judge.
____________________________
The Fourteenth Amendment prohibits deliberate
indifference to a pretrial detainee’s serious medical
needs. Disagreement about course of treatment or
mere negligence in administering treatment do not
amount to a constitutional violation. Rather, to state
a claim for deliberate indifference, a plaintiff must allege that an official acted (or failed to act) in an objectively unreasonable manner and with subjective
awareness of the risk. Indeed, the word deliberate
makes a subjective component inherent in the claim.
Pretrial detainee Thomas Pratt exhibited alcohol
withdrawal symptoms while in a county jail.
Healthcare providers diagnosed and treated Mr.
Pratt’s symptoms, but their course of treatment
proved ineffective. Plaintiff Faye Strain, as Mr.
Pratt’s guardian, sued. Although Plaintiff’s alleged

5a
facts suggest that Defendants may have underestimated the extent of Mr. Pratt’s symptoms, Plaintiff’s
allegations do not rise to the high level of deliberate
indifference. Exercising jurisdiction under 28 U.S.C. §
1291, we affirm the district court’s dismissal of Plaintiff’s federal claims, as well as its decision not to exercise supplemental jurisdiction over Plaintiff’s remaining state law claims.
I.
Officials at the Tulsa County Jail (the Jail) booked
Mr. Pratt into the Jail on December 11, 2015. 1 The
next morning, Mr. Pratt expressed that he was experiencing alcohol withdrawal and submitted a request
for detox medication. An Armor nurse conducted a
drug and alcohol withdrawal assessment of Mr. Pratt
that afternoon. During the assessment, Mr. Pratt
stated that he had habitually drank fifteen-to-twenty
beers per day for the past decade. Staff admitted Mr.
Pratt to the Jail’s medical unit, conducted a mental
health assessment, and documented his withdrawal
symptoms.
On December 13, Armor staff placed Mr. Pratt on
seizure precautions, which dictated that staff check
his vital signs every eight hours. Armor staff also
placed Mr. Pratt on Librium medication to treat his
alcohol withdrawal symptoms at an undetermined
time. Around 2 a.m. on December 14, Nurse Patricia
The Tulsa County Sheriff’s Office contracted with Defendant
Armor Correctional Health Services (Armor) to provide medical and mental health services to inmates at the Jail. The parties do not dispute that all individual healthcare professionals
who interacted with Mr. Pratt were agents of Armor and thus
state actors subject to the strictures of the Fourteenth Amendment.
1

6a
Deane conducted a withdrawal assessment, which revealed worsening symptoms. Nurse Deane observed
vomiting, severe tremors, acute panic states, and disorientation. Plaintiff alleged that Mr. Pratt’s symptoms showed he was suffering from delirium tremens. 2 Despite the severity of Mr. Pratt’s symptoms,
and against an assessment tool’s direction, Nurse
Deane did not contact a physician. Nurse Deane also
failed to check Mr. Pratt’s vitals or perform any additional assessments. 3 But someone, presumably a
nurse practitioner at the request of Nurse Deane,
switched Mr. Pratt from Librium to Valium shortly
after Nurse Deane’s assessment.
About eight hours later, at 10:30 a.m. on December
14, Dr. Curtis McElroy examined Mr. Pratt. Dr.
McElroy noticed a two-centimeter cut on Mr. Pratt’s
forehead and a pool of blood in his cell. Dr. McElroy,
aware of Mr. Pratt’s earlier symptoms from his medical records, observed Mr. Pratt’s disoriented state, but
did not send Mr. Pratt to the hospital or provide more
care. Dr. McElroy recorded that Mr. Pratt received his
first dose of Valium that morning. Another Armor
nurse encountered Mr. Pratt later that afternoon and
noted that he needed assistance with daily living

“According to the National Institutes of Health, delirium tremens is a severe form of alcohol withdrawal that involves sudden
and severe mental or nervous system changes.” Kindl v. City of
Berkley, 798 F.3d 391, 397 (6th Cir. 2015) (internal quotation
marks and citation omitted).
3 About ninety minutes later, another Armor staff member tried
to check Mr. Pratt’s vital signs but could not do so because he
would not sit still. Armor staff did not record any vital signs for
Mr. Pratt from December 14 until he left the Jail early on December 16.
2

7a
activities. Again, Armor staff did not escalate Mr.
Pratt’s level or place of care.
The next morning, Kathy Loehr, a licensed professional counselor (LPC), conducted a mental health
evaluation of Mr. Pratt. Mr. Pratt reported that he
was detoxing from alcohol and appeared shaky. LPC
Loehr observed that Mr. Pratt struggled to answer
questions and determined the cut on his forehead appeared unintentional. LPC Loehr declined to seek
more care for Mr. Pratt.
That afternoon, Dr. McElroy again assessed Mr.
Pratt and noted that he was underneath the sink in
his cell with a cut on his forehead. Another Armor
nurse observed Mr. Pratt around midnight on the
morning of December 16, but he would not get up, so
she did not check his vitals. Just before 1 a.m., a detention officer found Mr. Pratt lying motionless on his
bed and called for a nurse. An Armor nurse responded
immediately, initiated cardiopulmonary resuscitation, and called a medical emergency. First responders soon resuscitated Mr. Pratt and rushed him to a
hospital. Mr. Pratt had suffered a cardiac arrest. The
hospital later discharged Mr. Pratt with a seizure disorder and other ailments that left him permanently
disabled.
Plaintiff Faye Strain, as guardian of Mr. Pratt,
sued Armor, Nurse Deane, LPC Loehr, Dr. McElroy,
and Tulsa County Sheriff Vic Regalado in his official
capacity (collectively, Defendants) for Mr. Pratt’s
treatment at the Jail.
Plaintiff asserted claims for deliberate indifference
to Mr. Pratt’s serious medical needs under 42 U.S.C.
§ 1983 against all Defendants, as well as related state
law claims. The district court dismissed all of

8a
Plaintiff’s federal claims and declined to exercise supplemental jurisdiction over her state law claims.
Plaintiff now appeals.
II.
We review de novo the district court’s dismissal of
a complaint under Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim. Strauss v. Angie’s
List, Inc., 951 F.3d 1263, 1266 (10th Cir. 2020). To
survive a Rule 12(b)(6) motion, Plaintiff’s complaint
must allege sufficient facts to state a claim for relief
plausible on its face. Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (explaining that a claim is facially plausible “when the plaintiff pleads factual content that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged”).
We review the district court’s decision declining to
exercise supplemental jurisdiction for an abuse of discretion. Robey v. Shapiro, Marianos & Cejda, L.L.C.,
434 F.3d 1208, 1213 (10th Cir. 2006).
III.
We consider whether the district court erred by
dismissing Plaintiff’s federal claims under a standard
for deliberate indifference that included both an objective and a subjective component. Plaintiff contends
we should analyze her claims under a purely objective
standard given the Supreme Court’s decision in
Kingsley v. Hendrickson, 576 U.S. 389 (2015). She
also argues that the district court abused its discretion by declining to exercise supplemental jurisdiction
over her related state law claims. We reject Plaintiff’s
arguments and hold that deliberate indifference to a
pretrial detainee’s serious medical needs includes
both an objective and a subjective component, even

9a
after Kingsley. We also conclude that Plaintiff failed
to allege sufficient facts to support her deliberate indifference claims and that the district court did not err
by declining to exercise supplemental jurisdiction over
her remaining state law claims.
A.
The Supreme Court first recognized a § 1983 claim
for deliberate indifference under the Eighth Amendment, which protects the rights of convicted prisoners.
Estelle v. Gamble, 429 U.S. 97, 104 (1976) (holding
that deliberate indifference to a convicted prisoner’s
serious medical needs constitutes cruel and unusual
punishment in violation of Eighth Amendment). We
later granted pretrial detainees access to the claim
under the Fourteenth Amendment. Garcia v. Salt
Lake Cty., 768 F.2d 303, 307 (10th Cir. 1985) (holding
that, although the Eighth Amendment protects the
rights of convicted prisoners and the Fourteenth
Amendment protects the rights of pretrial detainees,
pretrial detainees are “entitled to the degree of protection against denial of medical attention which applies
to convicted inmates”). And we apply the same deliberate indifference standard no matter which amendment provides the constitutional basis for the claim.
Estate of Hocker by Hocker v. Walsh, 22 F.3d 995, 998
(10th Cir. 1994) (holding that a pretrial detainee’s
Fourteenth Amendment “claim for inadequate medical attention must be judged against the deliberate indifference to serious medical needs test of Estelle” (internal quotation marks and citation omitted)).
To state a cognizable claim, Plaintiff “must allege
acts or omissions sufficiently harmful to evidence deliberate indifference to serious medical needs.”
McBride v. Deer, 240 F.3d 1287, 1289 (10th Cir. 2001)

10a
(quoting Estelle, 429 U.S. at 106)). This standard includes both an objective component and a subjective
component. Clark v. Colbert, 895 F.3d 1258, 1267
(10th Cir. 2018). To establish the objective component,
“the alleged deprivation must be ‘sufficiently serious’
to constitute a deprivation of constitutional dimension.” Self v. Crum, 439 F.3d 1227, 1230 (10th Cir.
2006) (quoting Farmer v. Brennan, 511 U.S. 825, 834
(1994)). “A medical need is [objectively] serious if it is
one that has been diagnosed by a physician as mandating treatment or one that is so obvious that even a
lay person would easily recognize the necessity for a
doctor’s attention.” Clark, 895 F.3d at 1267 (alteration
in original and citation omitted). The subjective component requires Plaintiff to establish that a medical
“official knows of and disregards an excessive risk to
inmate health or safety; the official must both be
aware of facts from which the inference could be
drawn that a substantial risk of serious harm exists,
and [s]he must also draw the inference.” Mata v. Saiz,
427 F.3d 745, 751 (10th Cir. 2005) (alteration in original) (quoting Farmer, 511 U.S. at 837).
Plaintiff argues that the Supreme Court’s Kingsley
decision alters the standard for pretrial detainees’
Fourteenth Amendment claims. In Kingsley, the
Court held that a plaintiff may establish an excessive
force claim under the Fourteenth Amendment based
exclusively on objective evidence. Kingsley, 576 U.S.
at 397 (explaining that “the appropriate standard for
a pretrial detainee’s excessive force claim is solely an
objective one”). But Kingsley did not address the
standard for deliberate indifference to serious medical
needs. And the circuits are split on whether Kingsley
eliminated the subjective component of the deliberate
indifference standard by extending to Fourteenth

11a
Amendment claims outside the excessive force context. 4 Although we have continued to apply a twoprong test, we have not yet addressed Kingsley headon. See, e.g., Clark, 895 F.3d at 1269 (declining to
4 The Fifth, Eighth, and Eleventh Circuits have declined to extend Kingsley to deliberate indifference claims. Whitney v. City
of St. Louis, 887 F.3d 857, 860 n.4 (8th Cir. 2018) (holding that
“Kingsley does not control because it was an excessive force case,
not a deliberate indifference case”); Dang ex rel. Dang v. Sheriff,
Seminole Cty., 871 F.3d 1272, 1279 n.2 (11th Cir. 2017) (declining to apply Kingsley to a deliberate indifference claim because
“Kingsley involved an excessive- force claim, not a claim of inadequate medical treatment due to deliberate indifference,” so
Kingsley “does not actually abrogate or directly conflict with our
prior precedent” (internal quotation marks and citations omitted)); Alderson v. Concordia Par. Corr. Facility, 848 F.3d 415, 419
n.4 (5th Cir. 2017) (noting that “the Fifth Circuit has continued
to . . . apply a subjective standard post-Kingsley”). Other courts,
including the Third Circuit, have expressed doubts about the application of Kingsley, but declined to address the issue. See
Moore v. Luffey, 767 F. App’x 335, 340 n.2 (3d Cir. 2019) (unpublished) (acknowledging that the plaintiff did not cite any
binding authority “applying Kingsley to a claim of deliberate indifference to a detainee’s serious medical needs,” but declining to
address whether to apply a new standard in this case).
On the other hand, the Second, Seventh, and Ninth Circuits
have extended Kingsley to the deliberate indifference context.
Miranda v. Cty. of Lake, 900 F.3d 335, 352 (7th Cir. 2018) (concluding, “along with the Ninth and Second Circuits, that medical-care claims brought by pretrial detainees under the Fourteenth Amendment are subject only to the objective unreasonableness inquiry identified in Kingsley”); Gordon v. Cty. of Orange, 888 F.3d 1118, 1124 (9th Cir. 2018) (relying on the “broad
wording of Kingsley” to extend its holding to Fourteenth Amendment deliberate indifference claims); Darnell v. Pineiro, 849 F.3d
17, 34–35 (2d Cir. 2017) (overruling a case applying the subjective test to a deliberate indifference claim to apply a purely objective standard in the context of conditions of confinement
claims; further “concluding that deliberate indifference should be
defined objectively for a claim of a due process violation” (id. at
35)).

12a
address whether Kingsley displaced our precedent regarding a pretrial detainee’s deliberate indifference
claims). We do so today.
We decline to extend Kingsley to Fourteenth
Amendment deliberate indifference claims for several
reasons. First, Kingsley turned on considerations
unique to excessive force claims: whether the use of
force amounted to punishment, not on the status of
the detainee. Next, the nature of a deliberate indifference claim infers a subjective component. Finally,
principles of stare decisis weigh against overruling
precedent to extend a Supreme Court holding to a new
context or new category of claims.
First, we recognize that Kingsley involved an excessive force claim, not a deliberate indifference claim.
By its own words, the Supreme Court decided that “an
objective standard is appropriate in the context of excessive force claims brought by pretrial detainees pursuant to the Fourteenth Amendment”—nothing more,
nothing less. Kingsley, 576 U.S. at 402. Although the
Court did not foreclose the possibility of extending the
purely objective standard to new contexts, the Court
said nothing to suggest it intended to extend that
standard to pretrial detainee claims generally or deliberate indifference claims specifically. Id. at 395 (explaining that the question before the Court “concerns
the defendant’s state of mind with respect to whether
his use of force was ‘excessive’” and concluding “with
respect to that question that the relevant standard is
objective not subjective” (emphasis added)). So
whether Kingsley applies to Fourteenth Amendment
claims outside the excessive force context is not readily apparent from that opinion.

13a
Even though both causes of action arise under the
Fourteenth Amendment, a pretrial detainee’s cause of
action for excessive force serves a different purpose
than that for deliberate indifference. The excessive
force cause of action “protects a pretrial detainee from
the use of excessive force that amounts to punishment.” Id. at 397 (quoting Graham v. Connor, 490 U.S.
386, 395 n.10 (1989)). The deliberate indifference
cause of action does not relate to punishment, but rather safeguards a pretrial detainee’s access to adequate medical care. Garcia, 768 F.2d at 307. Excessive
force requires an affirmative act, while deliberate indifference often stems from inaction. Castro v. Cty. of
Los Angeles, 833 F.3d 1060, 1069 (9th Cir. 2016) (en
banc). Although “punitive intent may be inferred from
affirmative acts that are excessive in relationship to a
legitimate government objective, the mere failure to
act does not raise the same inference.” Id. at 1086
(Ikuta, J., dissenting) (reasoning that “the Kingsley
standard is not applicable to cases where a government official fails to act” because “a person who unknowingly fails to act—even when such a failure is objectively unreasonable—is negligent at most” and “the
Supreme Court has made clear that liability for negligently inflicted harm is categorically beneath the
threshold of constitutional due process”). Because the
two categories of claims protect different rights for different purposes, the claims require different state-ofmind inquiries.
Indeed, Kingsley relies on precedent specific to excessive force claims. The Court reasoned that the Due
Process Clause is particularly concerned with improper punishment of pretrial detainees. Kingsley,
576 U.S. at 398 (citing Graham, 490 U.S. at 395 n.10
(concluding that “the Due Process Clause protects a

14a
pretrial detainee from the use of excessive force that
amounts to punishment”)). And pretrial detainees
should receive greater protection against excessive
force than convicted criminals because the government lacks the same legitimate penological interest in
punishing those not yet convicted of a crime. Id. at
398–99. So a pretrial detainee may prevail on an excessive force claim “in the absence of an expressed intent to punish” if an official’s actions “appear excessive in relation to [a legitimate government] purpose.”
Id. at 398 (quoting Bell v. Wolfish, 441 U.S. 520, 561
(1979) (considering only objective evidence to determine “whether particular restrictions and conditions
accompanying pretrial detention amount to punishment in the constitutional sense of that word” (id. at
538))). Throughout the Kingsley opinion, the Court’s
“focus on ‘punishment’” provides the basis for removing the subjective requirement from a pretrial detainee’s excessive force claims. Id. (providing excessive force examples in which purely objective evidence
showed that the government’s punitive actions were
intentional, even if the motivation behind those actions was not to punish). But the Court has never suggested that we should remove the subjective component for claims addressing inaction. Castro, 833 F.3d
at 1086 (Ikuta, J., dissenting). Thus, the force of
Kingsley does not apply to the deliberate indifference
context, where the claim generally involves inaction
divorced from punishment. 5
We also recognize a distinction between claims against medical
professionals and law enforcement officers. Rife v. Okla. Dep’t of
Pub. Safety, 854 F.3d 637, 647 (10th Cir. 2017) (“Our court applies specialized standards to deliberate indifference claims
against medical professionals.”). Kingsley addressed claims
against law enforcement officers, not medical providers, which
5

15a
Next, we observe that a deliberate indifference
claim presupposes a subjective component. After all,
deliberate means “intentional,” “premeditated,” or
“fully considered.” Black’s Law Dictionary 539 (11th
ed. 2019). And as an adjective, “deliberate” modifies
the noun “indifference.” Chicago Manual of Style §
5.79 (16th ed. 2010) (“An adjective that modifies a
noun element usually precedes it.”). So a plaintiff
must allege that an actor possessed the requisite intent, together with objectively indifferent conduct, to
state a claim for deliberate indifference.
To that end, the Supreme Court previously rejected a request to adopt a “purely objective test for
deliberate indifference.” Farmer, 511 U.S. at 839. Instead, deliberate indifference requires an official to
subjectively disregard a known or obvious, serious
medical need. Id. at 837 (explaining that “deliberate
indifference [lies] somewhere between the poles of
negligence at one end and purpose or knowledge at the
other” (id. at 836)). So an official’s intent matters not
only as to what the official did (or failed to do), but also
why the official did it. Id. at 839 (explaining that a deliberate indifference claim focuses “on what a defendant’s mental attitude actually was”).
An excessive force claim, on the other hand, does
not consider an official’s “state of mind with respect to
the proper interpretation of the force.” Kingsley, 567
U.S. at 396 (emphasis in original). So the Supreme
Court distinguished deliberate indifference cases—
where an official’s subjective intent behind objectively
indifferent conduct matters—from the distinct class of
cases involving excessive force, which does not require
that an official subjectively intended for force to be
further distinguishes this case.

16a
excessive. Farmer, 511 U.S. at 835 (explaining that
the “application of the deliberate indifference standard is inappropriate in one class of prison cases: when
officials stand accused of using excessive physical
force” (internal quotation marks and citation omitted)). Removing the subjective component from deliberate indifference claims would thus erode the intent
requirement inherent in the claim. Id.; see also Kingsley, 576 U.S. at 408 (Scalia, J., dissenting) (warning
that the Fourteenth Amendment’s “Due Process
Clause is not a font of tort law to be superimposed
upon that state system” (internal quotation marks
and citation omitted)).
Finally, the Supreme Court has cautioned against
reaching the resolution that Plaintiff seeks. Extending Kingsley to eliminate the subjective component of
the deliberate indifference standard in the Tenth Circuit would contradict the Supreme Court’s rejection of
a purely objective test in Farmer and our longstanding precedent. Agostini v. Felton, 521 U.S. 203, 237
(1997) (“We reaffirm that if a precedent of this Court
has direct application in a case, yet appears to rest on
reasons rejected in some other line of decisions, the
Court of Appeals should follow the case which directly
controls, leaving to this Court the prerogative of overruling its own decisions.” (internal quotation marks,
alterations, and citation omitted)). Although other circuits have relied on the “broad language” of Kingsley
to apply a purely objective standard to Fourteenth
Amendment deliberate indifference claims, see supra
note 4, we choose forbearance. R.A.V. v. City of St.
Paul, Minn., 505 U.S. 377, 386 n.5 (1992) (“It is of
course contrary to all traditions of our jurisprudence
to consider the law on this point conclusively resolved

17a
by broad language in cases where the issue was not
presented or even envisioned.”).
At no point did Kingsley pronounce its application
to Fourteenth Amendment deliberate indifference
claims or otherwise state that we should adopt a
purely objective standard for such claims, so we cannot overrule our precedent on this issue. United
States v. White, 782 F.3d 1118, 1126–27 (10th Cir.
2015) (holding that one “panel of this court cannot
overrule the judgment of another panel absent en
banc consideration or an intervening Supreme Court
decision that is contrary to or invalidates our previous
analysis” (citation omitted)). 6 We therefore join our
sister circuits that have declined to extend Kingsley
to deliberate indifference claims and will apply our
two-prong test to Plaintiff’s claims.

Plaintiff also contends that we recently applied a purely objective test for the mistreatment of a pretrial detainee outside the
excessive force context. Colbruno v. Kessler, 928 F.3d 1155, 1163
(10th Cir. 2019) (applying the Kingsley standard to claims
against law enforcement officers who punished a pretrial detainee by publicly displaying his nude body through the public
areas of a hospital). Even if not a classic excessive force case, Colbruno may otherwise be categorized as a conditions of confinement case. Id. at 1162 (reiterating that a “detainee may not be
punished prior to an adjudication of guilt in accordance with due
process of law” (quoting Bell, 441 U.S. at 535 (emphasis added)).
And because that case dealt with the appropriateness of punishment, we saw fit to apply the Kingsley standard to the plaintiff’s
claims. Id. at 1163; see also Kingsley, 576 U.S. at 405 (Scalia, J.,
dissenting) (explaining that Bell endorsed this proposition “in
the context of a challenge to conditions of a confinement” (emphasis in original)). In any event, Colbruno did not address deliberate indifference, so it does not influence our analysis in this case.
6

18a
B.
We next consider whether Plaintiff stated a claim
for deliberate indifference against any Defendant.
Plaintiff contends that Defendants ignored obvious
and substantial risks to Mr. Pratt’s health as he experienced serious alcohol withdrawal- related symptoms, including delirium tremens. Defendants, on the
other hand, contend that Plaintiff alleged Mr. Pratt
received, at worst, negligent care, which does not rise
to the high level of deliberate indifference. Perkins v.
Kan. Dep’t of Corr., 165 F.3d 803, 811 (10th Cir. 1999)
(holding that the “negligent failure to provide adequate medical care, even one constituting medical
malpractice, does not give rise to a constitutional violation”).
Here, we must determine whether Plaintiff alleged
facts supporting the notion that Mr. Pratt’s condition
of delirium tremens was so obvious that any Defendant should have recognized it and escalated the course
of treatment accordingly. 7 Although Plaintiff alleged
that Mr. Pratt’s symptoms provided an “obvious” indication of delirium tremens, that allegation is conclusory. Khalik v. United Air Lines, 671 F.3d 1188, 1191
(10th Cir. 2012) (explaining that “in examining a complaint under Rule 12(b)(6), we will disregard conclusory statements and look only to whether the remaining, factual allegations plausibly suggest the defendant is liable”). Rather, Plaintiff’s factual allegations
Defendants do not contest whether Mr. Pratt’s condition created an objectively serious medical need, but focus their arguments on the subjective component of Plaintiff’s deliberate indifference claims. See Thompson v. Upshur Cty., 245 F.3d 447, 457
(5th Cir. 2001) (stating that “delirium tremens is a serious medical need”).
7

19a
suggest that Defendants diagnosed Mr. Pratt with a
less severe case of alcohol withdrawal and at least attempted to treat Mr. Pratt’s symptoms. See Quintana
v. Santa Fe Cty. Bd. of Comm’rs, No. 19-2039, 2020
WL 5087899, at *4 (10th Cir. Aug. 28, 2020) (concluding that “characteristics common to many intoxicated
individuals,” including frequent vomiting, “do not present an obvious risk” (internal quotation marks, alterations, and citation omitted)). To be sure, whether
Mr. Pratt received some care does not foreclose the
possibility of a deliberate indifference claim, Oxendine v. Kaplan, 241 F.3d 1272, 1277 n.7 (10th Cir.
2001), but an individual “who merely disagrees with a
diagnosis or a prescribed course of treatment does not
state a constitutional violation.” Perkins, 165 F.3d at
811.
To begin with, Armor staff admitted Mr. Pratt to
the Jail’s medical unit the day he complained of alcohol withdrawal symptoms. Staff also conducted multiple assessments of Mr. Pratt that same day and continued to assess Mr. Pratt throughout his stay in the
medical unit. Although Armor policy dictated that
staff should check Mr. Pratt’s vitals every eight hours,
Plaintiff alleges that staff repeatedly failed to check
his vitals and delayed providing heightened care. Mata, 427 F.3d at 757 (acknowledging that a failure to
follow policy may “provide circumstantial evidence
that a prison health care gatekeeper knew of a substantial risk of serious harm,” but “published requirements for health care do not create constitutional
rights”); see also Collins v. Al-Shami, 851 F.3d 727,
731–32 (7th Cir. 2017) (holding that a jail doctor was
not deliberately indifferent for failing to monitor a detainee’s vitals for signs of delirium tremens, in

20a
violation of policy, because healthcare providers can
rely on “more qualitative indicators of acute withdrawal”).
But Plaintiff failed to allege what other treatment
Defendants should have provided or how transferring
Mr. Pratt to a hospital would have produced a better
outcome. Rice ex rel. Rice v. Corr. Med. Servs., 675
F.3d 650, 672 (7th Cir. 2012) (holding that jail officials
were not deliberately indifferent by seeking to treat a
detainee in-house because nothing “suggests that the
result necessarily would have been different had the
care been provided at a private facility”). By Plaintiff’s
own allegations, Defendants provided several physical and mental health assessments to Mr. Pratt,
placed him on two forms of medication, and kept him
under routine observation. These allegations do not
evidence deliberate indifference. 8
We also observe that Plaintiff only provided specific arguments
about the named, individual Defendants in the argument section
of her brief. Becker v. Kroll, 494 F.3d 904, 913 n.6 (10th Cir.
2007) (explaining that an “issue or argument insufficiently
raised in the opening brief is deemed waived” (citing Fed. R. App.
P. 28(a)(9)(A)). To the extent that Plaintiff sought to maintain a
deliberate indifference claim against Armor for the actions of
other staff members, we conclude that the district court properly
dismissed any such claims.
Although Plaintiff alleged that Armor staff failed to check
Mr. Pratt’s vitals on different occasions, those allegations did not
amount to deliberate indifference because Plaintiff did not allege
facts showing that those staff members knew of and consciously
disregarded Mr. Pratt’s serious medical needs. See Williams v.
Kelso, 201 F.3d 1060, 1065 (concluding that even if providers had
instructions to check an inmate’s vital signs every four-to-six
hours, failure to do so does not constitute deliberate indifference
without knowledge of a serious medical need). And Plaintiff
chose not to address on appeal whether these failures constituted
an unconstitutional policy or custom, so Plaintiff waived this
8

21a
As to Nurse Deane, Plaintiff’s allegations are limited to her withdrawal assessment of Mr. Pratt
around 2 a.m. on December 14. In her briefing, Plaintiff addresses her claim against Nurse Deane in a single, conclusory paragraph that fails to expressly apply
the subjective component standard. Specifically,
Plaintiff does not explain how the complaint alleges
Nurse Deane’s subjective awareness of serious medical needs. We therefore conclude that Plaintiff waived
this argument and uphold the district court’s dismissal of Plaintiff’s federal claim against Nurse Deane.
See United States v. Walker, 918 F.3d 1134, 1151
(10th Cir. 2019) (explaining that the “briefing- waiver
rule applies equally to arguments that are inadequately presented in an opening brief,” such as those
“presented only in a perfunctory manner” (internal
quotation marks and citations omitted)); Burrell v.
Armijo, 603 F.3d 825, 835 (10th Cir. 2010) (declining
to address “issues nominally raised but inadequately
briefed” (citation omitted)).
As to Dr. McElroy, Plaintiff alleged that he too
failed to adequately treat Mr. Pratt’s obvious symptoms of delirium tremens, beginning with his first assessment on December 14. Specifically, Plaintiff alleged that Dr. McElroy knew someone had found Mr.
Pratt on the floor of his cell and observed a pool of
blood on the floor, a cut on Mr. Pratt’s forehead, vomiting, and disorientation. Even so, Dr. McElroy did not
send Mr. Pratt to a hospital or provide more care. Dr.
McElroy, however, determined that the twoissue. Becker, 494 F.3d at 913 n.6. Thus, without an individual
claim against an Armor agent, Plaintiff failed to state a federal
claim against Armor for the reasons we discuss in this section.
See infra pp. 19–23.

22a
centimeter cut on Mr. Pratt’s forehead did not point to
more serious medical needs and recorded that Mr.
Pratt received his first dose of Valium that morning.
Plaintiff’s contention that administering Valium
was an inadequate treatment goes to the efficacy of
treatment, not deliberate indifference. Compare Collins, 851 F.3d at 729–30 (determining that medical
providers were not deliberately indifferent where a
jail doctor thought a pretrial detainee was suffering
from delirium tremens and treated him with Librium
at the jail for ten days even though the detainee’s condition did not improve), with Lancaster v. Monroe
Cty., 116 F.3d 1419, 1425 (11th Cir. 1997) (reasoning
that “a total failure to obtain medical treatment for [a
detainee] amounted to deliberate indifference” because jail staff, who had actual notice that a detainee
had a history of seizures and “could go into delirium
tremens” while in custody, failed to monitor him),
overruled on other grounds, Jacoby v. Thomas, No. 1814541-C, 2019 WL 5697879, at *1 (11th Cir. Oct. 16,
2019). Plaintiff’s assertion that Dr. McElroy should
have sent Mr. Pratt to a hospital rather than attempt
to treat him in-house likewise fails to evidence deliberate indifference. Murphy v. Wexford Health Sources
Inc., 962 F.3d 911, 916–17 (7th Cir. 2020) (concluding
that a provider’s decision to deviate from the applicable standard of care by treating an inmate in the
prison’s healthcare unit rather than transfer him to
“an appropriate hospital setting” suggests negligence
rather than deliberate indifference). Even if Mr. Pratt
required heightened treatment, Plaintiff again failed
to allege that his symptoms were known or obvious to
Dr. McElroy. Mata, 427 F.3d at 751 (“Where the necessity for treatment would not be obvious to a lay

23a
person, the medical judgment of the physician, even if
grossly negligent, is not subject to second-guessing.”).
Our precedent is clear that “a misdiagnosis, even
if rising to the level of medical malpractice, is simply
insufficient under our case law to satisfy the subjective component of a deliberate indifference claim.”
Self, 439 F.3d at 1234. We cannot “freely substitute
[our] judgment” for Dr. McElroy’s or otherwise secondguess his course of treatment with the benefit of hindsight. Redmond v. Crowther, 882 F.3d 927, 938 (10th
Cir. 2018) (quoting Whitley v. Albers, 475 U.S. 312,
322 (1986)); see also Graham, 490 U.S. at 396 (explaining that courts do not judge the constitutionality
of particular actions “with the 20/20 vision of hindsight”). Although Plaintiff disagreed with Dr.
McElroy’s course of treatment, her factual allegations
did not establish deliberate indifference. Johnson v.
Leonard, 929 F.3d 569, 576 (8th Cir. 2019) (reasoning
that a “mere difference of opinion over matters of expert medical judgment or a course of medical treatment fails to rise to the level of a constitutional violation” (citation omitted)); see also Quintana, 2020 WL
5087899, at *4. We thus conclude that the district
court correctly dismissed Plaintiff’s federal claim
against Dr. McElroy.
As to LPC Loehr, Plaintiff’s allegations are limited
to her mental health evaluation of Mr. Pratt on the
morning of December 15. Plaintiff alleged that LPC
Loehr observed symptoms of delirium tremens and
provided no care to address these symptoms. Specifically, Plaintiff alleged that LPC Loehr noticed Mr.
Pratt struggled to answer questions and determined
the cut on his forehead appeared unintentional. Based
on her evaluation, LPC Loehr did not seek additional
care for Mr. Pratt.

24a
Again, Plaintiff questions LPC Loehr’s professional judgment and the adequacy of her evaluation.
See Duffield v. Jackson, 545 F.3d 1234, 1239 (10th
Cir. 2008) (reasoning that an “allegation that [her] examination was cursory does not sufficiently allege deliberate indifference rather than mere medical malpractice”). But Plaintiff did not allege facts indicating
that LPC Loehr—a counselor, not a medical doctor—
knew or should have known that Mr. Pratt was suffering from delirium tremens and needed heightened
care. See Clark, 895 F.3d at 1267. To the contrary,
LPC Loehr determined that Mr. Pratt could answer at
least some of her questions and did not appear to be a
danger to himself. Cf. Spears v. Ruth, 589 F.3d 249,
254 (6th Cir. 2009) (recognizing “that a detainee lying
face down, unresponsive and exhibiting symptoms of
delirium tremens showed medical need sufficient for
lay people to recognize he needed medical attention”).
Thus, LPC Loehr’s evaluation likewise failed to
amount to deliberate indifference. We therefore conclude that the district court correctly dismissed Plaintiff’s federal claim against LPC Loehr.
As to Sheriff Regalado, Plaintiff’s arguments are
based wholly on the existence of an underlying constitutional violation by one of the named, individual Defendants. We typically “will not hold a municipality
liable for constitutional violations when there was no
underlying constitutional violation by any of its officers.” Olsen v. Layton Hills Mall, 312 F.3d 1304, 1317–
18 (10th Cir. 2002) (internal quotation marks, brackets, and citation omitted). Nor did Plaintiff allege a
systemic failure, under which the combined actions of
multiple officials could constitute a constitutional violation even if no one individual’s actions were sufficient. Garcia, 768 F.2d at 310. And any alleged

25a
process failures at the Jail are not connected to alcohol
withdrawal or a failure to treat Mr. Pratt’s symptoms.
See Thompson v. Upshur Cty., 245 F.3d 447, 462 (5th
Cir. 2001) (observing that “cases do not clearly establish that sheriffs must provide medical training on the
dangers posed by [delirium tremens], only that they
not have policies in place that preclude serious medical needs, like [delirium tremens], from being met”).
Accordingly, we conclude that the district court correctly dismissed Plaintiff’s federal claim against Sheriff Regalado.
Although Plaintiff’s claims may smack of negligence, we conclude that they fail to rise to the high
level of deliberate indifference against any Defendant.
Thus, the district court correctly dismissed Plaintiff’s
federal claims in full. 9
C.
Finally, Plaintiff contends that the district court
abused its discretion by declining to exercise supplemental jurisdiction over her related state law claims.
The doctrine of supplemental jurisdiction is “a doctrine of discretion, not of plaintiff’s right.” United
Mine Workers of Am. v. Gibbs, 383 U.S. 715, 726
Plaintiff also argues that the district court incorrectly applied
a heightened pleading standard to her claims by finding that she
did not “establish” the subjective prong of the deliberate indifference analysis. Plaintiff’s argument appears to rest on the district
court’s application of the two-prong deliberate indifference test,
instead of the purely objective test preferred by Plaintiff. We reject Plaintiff’s argument advocating for a purely objective test, so
we must also reject this argument. See supra Part III(A). Even if
the district court did not use the most precise wording, the court’s
analysis made clear that it applied the appropriate Rule 12(b)(6)
standard at the motion to dismiss stage.
9

26a
(1966). “Certainly, if the federal claims are dismissed
before trial, even though not insubstantial in a jurisdictional sense, the state claims should be dismissed
as well.” Id.; see also 28 U.S.C. § 1367(c)(3) (permitting a district court to decline supplemental jurisdiction over a state law claim if “the district court has
dismissed all claims over which it has original jurisdiction”). As a result, the district court, upon dismissing Plaintiff’s federal claims, did not abuse its discretion by declining to exercise supplemental jurisdiction
over her state law claims.
AFFIRMED.

27a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NORTHERN DISTRICT OF
OAKLAHOMA
[filed August 6, 2019]
FAYE STRAIN, as
Guardian of
THOMAS BENJAMIN PRATT,
Plaintiff,
v.
VIC REGALADO, in
his official capacity;
BOARD OF
COUNTY COMMISSIONERS OF TULSA
COUNTY; ARMOR
CORRECTIONAL
HEALTH SERVICES, INC., CURTIS MCELROY, D.O.,
PATRICIA DEANE,
LPN; AND KATHY
LOEHR, LPC,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 18-CV-583TCK-FHM

OPINION AND ORDER

Before the Court are Motions to Dismiss filed by
Vic Regalado, in his official capacity, Armor Correctional Health Services, Inc., Kathy Loehr, Curtis

28a
McElroy and Patricia Deane. Docs. 12, 14, 15, 16 and
28. Plaintiff Faye Strain objects to all of the motions.
I.

Introduction

On August 25, 2017, Plaintiff, as guardian of
Thomas Benjamin Pratt, filed suit against these defendants in 17-CV-488-CVE-FHM. Doc. 2. In her
Amended Complaint, Plaintiff asserted claims for:
•

cruel and unusual punishment in violation of
the Eighth and Fourteenth Amendments pursuant to 42 U.S.C. § 1983 against defendants
McElroy, Deane, Loehr and an unidentified
nurse, and against Sheriff Regalado in his official capacity, as well as municipal liability
against Armor;

•

negligence against Armor, McElroy, Deane
and Loehr; and

•

cruel and unusual punishment in violation of
Article II § 9 of the Oklahoma Constitution
against all defendants.

Id. at 20-26. 1
On March 1, 2018, the Court dismissed the Complaint pursuant to Fed. R. Civ. P. 12(b)(6). Id. Doc. 39.
The Court concluded Count One of Plaintiff’s Complaint—the Eighth Amendment claim—“was drafted
in precisely the fashion Robbins proscribes, i.e., it is
a § 1983 claim against a government agency and a
The Amended Complaint alleged that Sheriff Glanz and ARMOR had “failed to take reasonable steps to alleviate the substantial risks to inmate health and safety, in deliberate indifference to Mr. Pratt’s physical health, mental health, and
safety, in deliberate indifference to Plaintiff’s serious medical
needs.” Doc. 2 at 20, ¶60.
1

29a
number of individual government actors—referred to
collectively as ‘defendant’—that fails to specify who is
alleged to have done what to whom. Dkt. # 1, at 2122.” Id. at 11. The Court further stated:
Under Robbins . . . count one of plaintiff’s
complaint fails to provide the individual
defendants with fair notice as to the basis
of the claim against them, to which they
are entitled under Fed. R. Civ. P. 8(a)(2).
Moreover, even assuming, arguendo, that
count one of plaintiff’s complaint does
provide fair notice to defendants, it nevertheless fails to state a claim for an Eighth
Amendment violation because it does not
allege that any defendant disregarded a
risk to Pratt, intentionally denied or delayed his access to medical care, or interfered with his treatment once it was prescribed.
Id. The Court concluded that the Section 1983 claim
failed because the facts alleged did not establish the
prison officials “intentionally denied or delayed access to medical care or intentionally interfered with
the treatment once prescribed.” Id.
The Court declined to exercise supplemental jurisdiction over Plaintiff’s remaining claims for commonlaw negligence against Armor, McElroy, Deane and
Loehr and violation of Article II § 9 of the Oklahoma
State Constitution. Id. at 11-12.
Plaintiff refiled the case on November 13, 2018.
Case No. 18-CV-583-TCK-FHM. Doc. 2. 2 The
The newly-filed case was originally assigned to Judge Eagan,
who recused. Doc. 3.
2

30a
Complaint asserts identical claims against the same
defendants. 3 The Factual Allegation section of the
Complaint is virtually identical to the Factual Allegation section of the Complaint in the previously-filed
case, except that, in each claim for relief, it recites the
names of individual defendants McElroy, Deane,
Loehr and “the unidentified nurse who encountered
Mr. Pratt at approximately 3:44 a.m. on December
14, 2015.” The Complaint also adds one new factual
allegation, specifically:
59. In February 2015 an auditor/nurse
hired by Tulsa County/TCSO, Angela
Mariani, issued a report focused on widespread failures by Armor Correctional
Health Services, Inc. to abide by its $5
million annual contract with the County.
Mariani also wrote three (3) memos notifying TCSO that ARMOR failed to staff
various medical positions in the Jail and
recommending that the county withhold
more than $35,000 in payments. Her report shows that Jail medical staff often
failed to respond to inmates’ medical
needs and the ARMOR failed to employ
enough nurses and left top administrative
positions unfilled for months. Meanwhile,
medical staff did not report serious incidents including inmates receiving the
wrong medication and a staff member
showing up “under the influence.”
Id. at 21.

In a footnote, Plaintiff states that she “refiled this case pursuant to Oklahoma’s ‘savings statute,’” 12 Okla. Stat. § 100.

3

31a
Defendants have again filed Motions to Dismiss
the Complaint pursuant to Fed. R. Civ. P. 12(b)(6).
II.

Applicable Law

In considering a motion to dismiss under Rule
12(b)(6), a court must determine whether the claimant has stated a claim upon which relief may be
granted. A motion to dismiss is properly granted
when a complaint provides no more than “labels and
conclusions, and a formulaic recitation of the elements of a cause of action.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007). A complaint must
contain enough “facts to state a claim to relief that is
plausible on its fact,” and the factual allegations
“must be enough to raise a right to relief above the
speculative level.” Id. (citations omitted). “Once a
claim has been stated adequately, it may be supported by showing any set of facts consistent with the
allegations in the complaint.” Id. at 562.
While a complaint attacked by a Rule 12(b)(6) motion to dismiss does not need detailed factual allegations, “a plaintiff’s obligation to provide the grounds
of his entitle[ment] to relief requires more than labels
and conclusions, and a formulaic recitation of the elements of a cause of action will not do.” Id. at 555 (internal quotations omitted). For the purpose of making the dismissal determination, a court must accept
as true all the well-pleaded allegations, even if doubtful in fact, and must construct the allegations in the
light most favorable to the claimant. Id. at 555; Alvarado v. KOB-TV, L.L.C., 493 F.3d 120, 1215 (10th
Cir. 2007); Moffett v. Haliburton Energy Servs., Inc.,
291 F.3d 1227, 1231 (10th Cir. 2002).

32a
III.

Allegations of the Complaint

Plaintiff Faye Strain is the duly appointed guardian and mother of Thomas Benjamin Pratt. Doc. 2, ¶
1. Pratt was booked into the Tulsa County Jail on December 11, 2015. Id., ¶15. On December 12, 2015, at
7:39 a.m., Pratt submitted a medical sick call note requesting to speak to a nurse about “detox meds.” Id.
At 12:10 p.m., he submitted a second sick call note,
stating:
MY NAME IS TOMMY PRATT I CAME
IN YESTERDAY AND STARTED HAVING WITHDRAWLS [sic] I NEED TO
TRY AND GET SOME DETOX MEDS
THANKYOU
Id. At 1:05 p.m., Nurse Karen Canter, an employee of
defendant Armor—a private corporation responsible,
in part, for providing medical and mental health services to Pratt while he was in custody of the Tulsa
County Sheriff’s Office (“TCSO”)—conducted a drug
and alcohol assessment of Pratt. Id. Pratt advised the
nurse that he had a habit of drinking 15-20 beers for
at least the previous ten years. Id. The assessment
tool indicates that he was experiencing constant nausea, frequent dry heaves and vomiting, moderate
tremors, anxiety, restlessness, drenching sweats and
severe diffuse aching of joints and muscles. Id. at 56. Based on this assessment, he was placed on a “Librium protocol” and “seizure precautions” were ordered. Id. at 6. At 1:48 p.m., Pratt was admitted to
the jail’s medical unit, where Nurse Gracie Beardon,
an Armor employee and agent of TCSO, conducted a
“mental health infirmary admission assessment.” Id.
at 7. Nurse Beardon noted that Pratt was nauseated,
slumped over, anxious, fearful, and “unsteady on his

33a
feet,” and that he posed a “risk for injury” due to his
detoxification and “high blood pressure.” Id.
On December 13, 2015, Pratt was again placed on
seizure precautions, which included an order that his
vital signs be taken every eight hours. Id. On December 14, 2015, at approximately 2:08 a.m., Nurse Patricia Deane conducted another drug and alcohol assessment of Pratt. Id. The assessment tool indicated
that he was experiencing constant nausea, frequent
dry heaves and vomiting, severe tremors even with
arms not extended, “acute panic stats as seen in severe or acute schizophrenic reactions,” restlessness,
drenching sweats, continuous hallucinations and disorientation for “place or person.” Id.
On December 14, 2015, at approximately 3:44
a.m., an unidentified ARMOR employee attempted to
take Pratt’s vital signs. Id. at 8. The ARMOR employee noted that when he/she encountered Pratt, he
was “tearing up” his cell and deliriously stating that
he was “locked in the store.” Id. In a note dated December 14, 2015, and placed in the Armor medical
chart, defendant Curtis McElroy, D.O., stated:
Pt seen and evaluated. Came in 12/11/15
with alcohol abuse and placed on Librium
protocol for alcohol withdrawal. Pt
switched to valium and received first dose
this morning. Pt reported to be found on
floor pulling up tile with approximately
2cm forehead laceration. Small, ˂ 1 cm
laceration left lateral elbow area and a
laceration ˂ 1 cm on right mid right posterior forearm. Some scratches on dorsum
of nose. No other facial injury. Pt awake,
confused, talking about what movie are

34a
we watching tonight. No history of witnessed fall or pt inflicting injury to himself. Pool of blood under sink in cell.
Id. at 8-9.
Nurse Margarita Brown, an ARMOR employee,
encountered Pratt in the medical unit at around 4:07
p.m. on December 14. Id. at 11. Nurse Brown reported that he was “angry,” “anxious” and confused;”
and was staring and “reaching into space.” She noted
that he lacked judgment and had “impaired short
term memory” and charted that he needed assistance
with “activities of daily living.” On December 15,
2015, Licensed Professional Counselor Kathy Loehr
conducted an initial mental health evaluation of
Pratt. Id. at 11-12. Pratt reported that he was “detoxing from alcohol.” Id. at 12. Loehr charted that Pratt
“present[ed] with a wound on his forehead from a self
inflicted injury yesterday” and that the wound
“[a]ppear[ed] unintentional” as Pratt was “detoxing
and did not appear oriented yesterday.” Id. She noted
his memory, insight, judgment and concentration
were “poor.” Id. In a “Medical Sick Call” noted dated
December 15, 2015, Dr. McElroy noted Pratt was reported to “have been found underneath sink [in his
cell] with laceration [on] mid forehead.” Id. at 12-13.
On December 16, 2016, at approximately 12 a.m.,
Nurse Lee Ann Bivins, an Armor employee, observed
that Pratt “would not get up . . . .” Id. at 13. However,
she did not check Pratt’s vital signs. Id. Just before 1
a.m., a detention officer discovered Pratt lying on his
bed and not moving; he called for a nurse. Id. Upon
entering Pratt’s cell, she found that he had no pulse
or respiration and was completely unresponsive. Id.
She initiated CPR and called a “medical emergency”

35a
at around 1:00 a.m. Id. Shortly thereafter, first responders arrived and continued CPR. Id. Pratt was
resuscitated at around 1:15 a.m. and was rushed to
St. John Medical Center in Tulsa. Id.
According to the EMSA Report, Pratt had suffered
a cardiac arrest. Id. the EMSA report also stated that
the Jail medical staff reported Pratt had hit his head
“four days ago” and had been non-verbal and lethargic ever since; Pratt had been going through withdrawals and been on suicide watch; and he had a
large hematoma to his forehead from his fall “four
days ago.” Id. at 13-14.
Pratt was admitted to the hospital, where he remained until January 1, 2016. Id. at 14. Upon discharge, he was diagnosed with cardiopulmonary arrest secondary to presumed seizure during incarceration; acute renal failure secondary to hypotension
and Rhabdomyolysis; Todd’s paralysis; agitation; anoxic brain injury and AKI: secondary to hypotension
and rhabdomyolysis; hyponatremia; transaminitis:
acute; and head laceration: acute. Id.
Before Pratt was admitted to the jail on December
11, 2015, he had no history of seizure disorder, brain
damage or severe mood swings. Id. Since suffering
from untreated brain injury and delirium tremens
which led to cardiac arrest/severe seizures at the Jail,
he has been permanently disabled. Id. He continues
to suffer from severe seizure disorder, memory loss,
extreme mood swings and anger and verbal/communication delays/deficits. Id. he is now unable to work
and has been homeless at times. He requires assistance with everyday life activities. He is incapable of
safely living on his own. Id.

36a
The Complaint alleges there are longstanding,
systemic deficiencies in the Jail’s medical and mental
health care services, about which Former Sheriff
Stanley Glanz knew. Id. at 15. Plaintiff alleges that
in 2007, the National Commission on Correctional
Health Care (“NCCHC”) audited the Jail and concluded there were numerous deficiencies in the care
provided to inmates, including failure to address
health care needs in a timely manner. Id. In 2009, the
Oklahoma State Department of Health cited TCSO
for violation of the Oklahoma Jail Standards in connection with the suicide death of an inmate with
schizophrenia. Id. at 15-16. In August 2009, the
American Correctional Association (“ACA”) conducted a “mock audit” of the Jail, which revealed that
the Jail was non-compliant with “mandatory health
standards” and suggested “substantial changes. Id.
at 16. In response, the Jail Administrator sought input and recommendations from Elizabeth Gondles,
Ph.D., the ACA’s medical director/medical liaison. Id.
On October 9, 2009, Dr. Gondles generated a report
which identified issues and suggested improvements
(“Gondles Report”). Id. The issues included understaffing of medical personnel; deficiencies in “doctor/PA coverage; lack of health services oversight and
supervision; failure to provide new health staff with
formal training; delays in inmates receiving necessary medication; nurses failing to document the delivery of health services; systemic nursing shortages;
failure to provide timely health appraisals to inmates
and 313 health-related grievances within the previous 12 months. Id. Dr. Gondles concluded that many
of the issues were a result of the lack of understanding of correctional healthcare issues by jail administration and contract oversight and monitoring of
the private provider. Id. at 17. She “strongly

37a
suggest[ed] that the Jail Administrator establish a
central Office Bureau of Health Services” to be
staffed by a TCSO-employed Health Services Director (“HSD”). Id. However, TCSO did not implement
the recommendations in the Gondles Report. Id. 4
The Complaint also alleges that the NCCHC conducted a second audit of the Jail’s health services program in 2010, at the conclusion of which it placed the
Tulsa County Jail on probation. Id. at 17-18. The
NCCHC found numerous serious deficiencies with
the health services program, including:
•

The [Quality Assurance] multidisciplinary
committee does not identify problems, implement and monitor corrective action, nor
study its effectiveness.

•

There have been several inmate deaths in
the past year . . . . The clinical mortality reviews were poorly performed.

The Complaint also alleges that on October 28, 2010, Assistant
District Attorney Andrea Wyrick sent an email to TCSO’s Risk
Manager, Josh Turley, voicing concerns about “whether the
Jail’s medical provider, CHMO, a subsidiary of CHC, was complying with its contract.” Doc. 2 at 17. Plaintiff stated: “Ms.
Wyrick further made an ominous prognosis: ‘This is very serious,
especially in light of the three cases we have now—what else
will be coming? It is one thing to say we have a contract . . . to
cover medical services . . . It is another issue to ignore any and
all signs we receive of possible [medical] issues or violations of our agreement with [CHC] for [health] services in the
jail. The bottom line is, the sheriff is statutorily . . . obligated
to provide medical services.” (emphasis added). Neither
CHMO nor CHC is a defendant in this case and this allegation appears to be unrelated to the defendants (including Armor) in
this case.

4

38a
•

The responsible physician does not document his review of the RN’s health assessments.

•

The responsible physician does not conduct
clinical chart reviews to determine if clinically appropriate care is ordered and implemented by attending health staff;

•

[D]iagnostic tests and specialty consultations are not completed in a timely manner
and are not ordered by the physician;

•

If changes in treatment are indicated, the
changes are not implemented;

•

When a patient returns from an emergency
room, the physician does not see the patient,
does not review the ER discharge orders, and
does not issue follow-up orders as clinically
needed; and

•

“potentially suicidal inmates [are not]
checked irregularly, not to exceed 15
minutes between checks. (sic). Training for
custody staff has been limited. Follow up
with the suicidal inmates has been poor.”

Id. at 18. Former Sheriff Glanz read only the first two
or three pages of the 2010 NCCHC Report and is unaware of any changes in policies or practices in response to the Report. Id.
The Complaint also alleges that over a period of
many years, Tammy Harrington, R.N., the former Director of Nursing at the Jail, observed and documented many concerning deficiencies in the delivery
of health care services to inmates, including chronic
failure to triage inmates’ requests for medical and
mental health assistance; a chronic lack of

39a
supervision of clinical staff; and repeated failure of
medical staff to alleviate known and significant deficiencies in the health services program at the Jail. Id.
at 18-19. On September 29, 2011, the United States
Department of Homeland Security’s Office of Civil
Rights and Civil Liberties (“CRCL”) reported its findings in connection with an audit of the Jail’s medical
system pertaining to the United States Immigration
and Customs Enforcement detainees. Id at 19. The
report stated that “CRCL found a prevailing attitude
among clinic staff of indifference . . . ;” “Nurses are
undertrained. Not documenting or evaluating patients properly.”’ “Found one case clearly demonstrates a lack of training, perforated appendix due to
lack of training and supervision;” “Found two … detainees with clear mental/medical problems that
have not seen a doctor;” ‘[Detainee] has not received
his medication despite the fact that detainee stated
was on meds at intake;” “TCSO medical clinic is using
a homegrown system of records that ‘fails to utilize
what we have learned in the past 20 years.” Id.
Director Harrington did not observe any meaningful change in health care policies or practices at the
Jail after the ICE-CRCL Report was issued. Id. On
the contrary, less than 30 days after the report was
issued, on October 27, 2011, another inmate, Elliott
Earl Williams, died at the Jail as a result of truly inhumane treatment and reckless medical neglect
which defies any standard of human decency. Id. A
federal jury has since entered a verdict holding Sheriff Regalado liable in his official capacity for the unconstitutional treatment of Mr. Williams. Id. In the
wake of the Williams death, which was fully investigated by TCSO, former Sheriff Glanz made no meaningful improvements to the medical system,

40a
evidenced by the fact that another inmate, Gregory
Brown, died due to grossly deficient care just months
after Williams. Id. at 19-20.
On November 18, 2011, AMS-Roemer, the Jail’s
own retained medical auditor, issued a report finding
multiple deficiencies in the Jails medical delivery
system, including “[documented] deviations [from
protocols which] increase the potential for preventable morbidity and mortality.” Id. at 20. AMS-Roemer
commented on no less than six inmate deaths, finding
deficiencies in the care provided to each. Id. Sheriff
Glanz did little, if anything to address the systemic
problems identified in the AMS-Roemer Report, and
AMS-Roemer continued to find serious deficiencies in
the delivery of care at the Jail, including delays for
medical staff and providers to get access to inmates,
no sense of urgency attitude to see patients, or have
patients seen by providers, failure to follow NCCHC
guidelines “to get patients to providers,” and “[n]ot
enough training or supervision of nursing staff.” Id.
In November 2013, BOCC/TCSO/Former Sheriff
Glanz retained ARMOR as the new private medical
provider. However, this step has not alleviated the
constitutional deficiencies with the medical system.
Id.
IV.

Analysis
A. 42 U.S.C. § 1983 Claim

Count One of the Complaint alleges that all defendants deprived Pratt of his Eighth Amendment
right to be free from cruel and unusual punishment,
as their deliberate indifference to his medical needs
caused the permanent disabilities from which he now
suffers. Doc. 2 at 21. “The Eighth Amendment, which

41a
applies to the States through the Due Process Clause
of the Fourteenth Amendment, prohibits the infliction of ‘cruel and unusual punishments’ on those convicted of crimes.” Wilson v. Seiter, 501 U.S. 294, 29697. As a result, “[p]rison officials have a duty under
the Eighth Amendment to provide humane conditions of confinement,” including “adequate food,
clothing, shelter, and medical care.” Farmer v. Brennan, 511 U.S. 825, 825 (1994) (emphasis added).
However, “in the medical context, an inadvertent
failure to provide adequate medical care cannot be
said to constitute ‘an unnecessary and wanton infliction of pain’ or to be repugnant to the conscience of
mankind.” Estelle v. Gamble, 429 U.S. 97, 105-106
(1976). Accordingly, “a complaint that a physician
has been negligent in diagnosing or treating a medical condition does not state a valid claim of medical
mistreatment under the Eighth Amendment,” and
“[m]edical malpractice does not become a constitutional violation merely because the victim is a prisoner.” Id. at 106. Rather, “[i]n order to state a cognizable claim, a prisoner must allege acts or omissions sufficiently harmful to evidence deliberate indifference to serious medical needs. It is only such indifference that can offend ‘evolving standards of decency’ in violation of the Eighth Amendment.” Id.
(emphasis added).
The Tenth Circuit has held that in order to plead
a viable Eighth Amendment claim in a prisoner
case, a plaintiff must allege:
(1) “actual knowledge of the specific risk
of harm [to the detainee] . . . or that the
risk was so substantial or pervasive that
knowledge can be inferred;” (2) “fail[ure]

42a
to take reasonable measures to avert the
harm;” and that (3) “failure to take such
measures in light of [the] knowledge, actual or inferred, justifies liability for the
attendant consequences of [the] conduct,
even though unintended.”
Estate of Hocker by Hocker v. Walsh, 22 F.3d 995,
1000 (10th Cir 1994) (citing Berry v. City of Muskogee,
900 F.2d 1489, 1498 (10th Cir. 1990). See also Cox v.
Glanz, 800 F.3d 1231, 1248 (10th Cir. 2015). “The
subjective component requires showing the prison official ‘knew [the inmate] faced a substantial risk of
harm and disregarded that risk by failing to take reasonable measures to abate it.’” Redmond v. Crowther,
882 F3d 927, 939-40 (10th Cir. 2018) (quoting Martinez v. Beggs, 563 F.3d 1082, 1088-89 (10th Cir.
2009)). “The subjective prong is met if prison officials
“intentionally deny[] or delay[] access to medical care
or intentionally interfere[] with the treatment once
prescribed.’” Id. at 940 (citing Estelle v. Gamble, 429
U.S. 97, 104-105 (1975)). However, “a complaint that
a physician has been negligent in diagnosing or treating a medical condition does not state a valid claim of
medical mistreatment under the Eighth Amendment.” Estelle, 429 U.S. at 2912. Nor does disagreement in medical judgment. Id. at 107.
Notwithstanding its minor revisions, the Complaint in this case suffers the same fatal flaw as the
Amended Complaint in the earlier case: Taken as
true, the facts alleged establish that Pratt received
medical treatment, although Plaintiff challenges its
efficacy. For instance, on December 12—the day after
Pratt was booked into Jail—he was seen by a nurse
who conducted a “mental health infirmary admission
assessment” and was admitted to the Jail’s medical

43a
unit (Complaint ¶ 18). According to the Complaint,
on December 11, 2015, he was placed on Librium protocol for alcohol withdrawal. Id., ¶ 26. He was
switched to valium on December 14, 2015. Id. Thus,
although the allegations arguably state a claim for
negligence, they do no establish that defendants intentionally denied or delayed access to treatment or
intentionally interfered with the treatment once prescribed. Accordingly, the Eighth Amendment claim is
subject to dismissal in its entirety. See Estelle, supra.
B. Common Law Negligence and Oklahoma Constitutional Claims
Plaintiff’s remaining claims for common-law negligence against Armor, McElroy, Deane and Loehr
(Count Two) and violation of Article II § 9 of the Oklahoma Constitution against all defendants (Count
Three) arise under Oklahoma law. Pursuant to 28
U.S.C § 1367(a), a federal court may exercise supplemental jurisdiction over claims related over which it
has original jurisdiction. However, § 1367(c)(3) “expressly permits a district court to decline to exercise
supplemental jurisdiction over any remaining statelaw claims,” and the Tenth Circuit has “repeatedly
recognized that this is the preferred practice.” Gaston
v. Ploeger, 297 Fed. Appx. 738, 746 (10th Cir. 2008)
(citations omitted). Accordingly, the Court declines to
exercise supplemental jurisdiction over plaintiff’s remaining state law claims.
V.

Conclusion

Defendants’ Motions to Dismiss—Docs. 12, 14, 15,
16 and 28—are hereby granted.

44a
ENTERED this 6th day of August, 2019.
/s/ Terence C. Kern
United State District Judge
Terence C. Kern

45a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
OAKLAHOMA
[filed November 13, 2018]
(1) FAYE STRAIN, as
Guardian of
THOMAS BENJAMIN PRATT,
Plaintiff,
vs.
(1) VIC REGALADO,
in his official capacity;
(2) BOARD OF
COUNTY COMMISSIONERS OF
TULSA COUNTY;
(3) ARMOR CORRECTIONAL
HEALTH SERVICES, INC.,
(4) CURTIS
MCELROY, D.O., PATRICIA DEANE,
LPN; and
(6)KATHY LOEHR,
LPC,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.: 18-cv-583CVE-FHM
Jury Trial Demanded
Attorney Lien
Claimed

46a
COMPLAINT
COMES NOW the Plaintiff Faye Strain (“Plaintiff”) as guardian of Thomas Benjamin Pratt (“Mr.
Pratt”), 1 and for her Complaint against Defendants
alleges and states as follows:
Plaintiff has refiled this case pursuant to Oklahoma’s “savings
statute”. See 12 Okla. Stat. § 100; Eastom v. City of Tulsa, 783
F.3d 1181, 1184 (10th Cir. 2015) (holding that Oklahoma’s “savings statute” applies to claims filed under 42 U.S.C. § 1983).
This Court filed a Judgment dismissing the original action without prejudice on March 27, 2018, pursuant to an Opinion and
Order filed on March 1, 2018. See 17-CV-488 (N.D. Okla.) (Dkt.
## 39 and 40). Respectfully, Plaintiff asserts that the Court’s
decision to dismiss the initial action was erroneous and contrary
to applicable law. In particular, the Court dismissed the first
action, in primary part, based on the holding that the legal
counts in Plaintiff’s initial Complaint impermissibly included
collective allegations (i.e., used the term “Defendants”) in violation of the Tenth Circuit’s opinion in Robbins v. Oklahoma, 519
F.3d 1242, 1247 (10th Cir. 2008). See Strain v. Regalado, No.
17-CV-0488-CVE- FHM, 2018 WL 1123876, at *5 (N.D. Okla.
Mar. 1, 2018). Nevertheless, it is permissible to use the collective term, “Defendants”, so long as allegations make a “distinction as to what acts are attributable to whom….” Robbins, 519
F.3d at 1250. See also Bledsoe v. Jefferson Cty., Kansas, No. 162296-DDC-GLR, 2017 WL 3334641, at *14 (D. Kan. Aug. 4,
2017) (“[T]he Tenth Circuit never has adopted blanket prohibition against collective allegations.”).
1

In Cox v. Glanz, this Court rejected Former Sheriff Stanley
Glanz’s “collective allegations” arguments and denied his motion to dismiss, holding and reasoning as follows:
Glanz questions the factual allegations underlying the
policies, practices, or customs identified by plaintiff, but
the Court may not disregard the well- pleaded allegations of the complaint in ruling on a motion to dismiss.
… Glanz also complains that plaintiff uses the term “defendants” when describing the alleged conduct, and that
the allegations of the first amended complaint are too
vague to give him notice of the claims against him.

47a
PARTIES
1. Plaintiff Faye Strain is the duly appointed
guardian of Mr. Pratt. Plaintiff is also Mr. Pratt’s
mother.
2. Defendant Vic Regalado (“Sheriff Regalado” or
“Regalado”) is the current Sheriff of Tulsa County,
Oklahoma, residing in Tulsa County, Oklahoma and
acting under color of state law. Defendant Regalado
is sued purely in his official capacity. It is well-established, as a matter of Tenth Circuit authority, that a
§ 1983 claim against a county sheriff in his official
capacity “is the same as bringing a suit against the
Id. at 8–9. However, plaintiff has described the alleged
conduct of each defendant with sufficient specificity to
give Glanz and the other defendants notice of the claims
against them, and plaintiff's use of the term “defendants” is appropriate when the first amended complaint is considered as a whole.

No. 11-CV-0457-CVE-FHM, 2011 WL 6740293, at *4 (N.D.
Okla. Dec. 22, 2011) (emphasis added). Respectfully, Plaintiff
asserts that, in dismissing the initial action, the Court viewed
the language of Plaintiff’s legal causes of action in isolation and
did not consider the Complaint “as a whole”. Read as a whole,
the Complaint in the first action was highly detailed and set out,
with specificity, the allegedly unlawful conduct of each individual defendant. It appears that the Court did not consider the
Factual Allegations portion of the Complaint when holding that
the Constitutional claims, in isolation, violated Robbins. Although the Complaint in the first action “contain[ed] multiple
claims against multiple defendants,” when read as a whole,
“there [wa]s no confusion as to whom the allegation[s] were asserted against.” Briggs v. Johnson, 274 F. App'x 730, 736 (10th
Cir. 2008) (emphasis added). Moreover, the allegations in the
first action sufficiently “differentiate[d] between the actions
taken by individual Defendants and actions allegedly taken by
the [County]….” Bark v. Chacon, No. 10-CV-01570-WYD-MJW,
2011 WL 1884691, at *5 (D. Colo. May 18, 2011) (distinguishing
Robbins).

48a
county.” Martinez v. Beggs, 563 F.3d 1082, 1091 (10th
Cir. 2009). See also Porro v. Barnes, 624 F.3d 1322,
1328 (10th Cir. 2010); Bame v. Iron Cnty., 566 F.
App’x 731, 737 (10th Cir. 2014). As Tulsa County
Sheriff, Regalado is, in essence, a governmental entity. As Tulsa Sheriff, in his official capacity, Sheriff
Regalado is responsible for County/Tulsa County
Sheriff’s Office (“TCSO”) rules, regulations, policies,
practices, procedures, and/or customs, including the
policies, practices, procedures, and/or customs that
violated Mr. Pratt’s rights as set forth in this Complaint. Sheriff Regalado is the successor in office to
former Sheriff Stanley Glanz (“Former Sheriff
Glanz”).
3. Defendant Board of County Commissioners of
Tulsa County (“BOCC”) is a statutorily-created governmental entity. 57 Okla Stat. § 41 provides that
“[e]very county, by authority of the board of county
commissioners and at the expense of the county,
shall have a jail or access to a jail in another county
for the safekeeping of prisoners lawfully committed.”
(emphasis added). BOCC must discharge its responsibilities to the Tulsa County Jail (“Jail”) in a constitutional manner. BOCC is properly sued under the
provisions of the Oklahoma Governmental Tort
Claims Act (“GTCA”).
4. Defendant Armor Correctional Health Services, Inc. (“ARMOR”) is a foreign corporation doing
business in Tulsa County, Oklahoma and was at all
times relevant hereto responsible, in part, for providing medical and mental health services and medication to Mr. Pratt while he was in the custody of
TCSO. ARMOR was additionally responsible, in part,
for creating and implementing policies, practices,
and protocols that govern the provision of medical

49a
and mental health care to inmates at the Jail, and for
training and supervising its employees. ARMOR was,
at all times relevant hereto, endowed by Tulsa
County with powers or functions governmental in nature. As such, ARMOR became an agency or instrumentality of the state and subject to its Constitutional limitations.
5. Defendant Curtis McElroy, D.O. (“Dr.
McElroy”) was at all times relevant hereto, an employee and/or agent of ARMOR/TCSO, who was, in
part, responsible for overseeing Mr. Pratt’s health
and well-being, and assuring that Mr. Pratt’s medical/mental health needs were met, during the time he
was in the custody of TCSO. At all times pertinent,
Dr. McElroy was acting within the scope of his employment and under color of State law. Dr. McElroy
is being sued in his individual capacity.
6. Defendant Patricia Deane, LPN (“Nurse
Deane”), was, at all times relevant hereto, an employee and/or agent of ARMOR/TCSO, who was, in
part, responsible for overseeing Mr. Pratt’s health
and well-being, and assuring that Mr. Pratt’s medical/mental health needs were met, during the time he
was in the custody of TCSO. At all times pertinent,
Nurse Deane was acting within the scope of her employment and under color of State law. Nurse Deane
is being sued in her individual capacity.
7. Defendant Kathy Loehr (“Ms. Loehr”), was, at
all times relevant hereto, an employee and/or agent
of ARMOR/TCSO, who was, in part, responsible for
overseeing Mr. Pratt’s health and well-being, and assuring that Mr. Pratt’s medical/mental health needs
were met, during the time he was in the custody of
TCSO. At all times pertinent, Ms. Loehr was acting

50a
within the scope of her employment and under color
of State law. Ms. Loehr is being sued in her individual capacity.
JURISDICTION AND VENUE
8. The acts giving rise to this lawsuit occurred
in Tulsa County, State of Oklahoma, within this judicial district.
9. Prior to bringing the initial case, Plaintiff complied with the tort claim notice provisions of the Oklahoma Government Tort Claim Act (“GTCA”), 51
O.S. § 151, et seq by notifying Defendants of her intent to file state law claims in connection with the
events and injuries described herein. The GTCA
process has been exhausted. This initial action was
timely brought pursuant to 51 O.S. § 157.
10. The jurisdiction of this Court is invoked pursuant to 28 U.S.C. § 1343 to secure protection of, and
to redress deprivations of, rights secured by the
Fourth and Fourteenth Amendments to the United
States Constitution as enforced by 42 U.S.C. § 1983,
which provides for the protection of all persons in
their civil rights and the redress of deprivation of
rights under color of law.
11. The jurisdiction of this Court is also invoked
under 28 U.S.C. § 1331 to resolve a controversy arising under the Constitution and laws of the United
States, particularly the Eighth and/or Fourteenth
Amendments to the United States Constitution and
42 U.S.C. § 1983.
12. This Court has supplemental jurisdiction
over the state law claims asserted herein pursuant
to 28 U.S.C. § 1367, since the claims form part of the

51a
same case or controversy arising under the United
States Constitution and federal law.
13. Venue is proper under 28 U.S.C. § 1391(b) because a substantial part of the events or omissions
giving rise to Plaintiffs’ claims occurred in this judicial district.
FACTUAL ALLEGATIONS
A. Facts Regarding Mr. Pratt
14. Mr. Pratt was booked into the Jail on December 11, 2015. Mr. Pratt was placed in a general population pod, J-16.
15. At 7:39am on December 12, 2015, Mr. Pratt
submitted a medical sick call note, through the Jail’s
electronic kiosk system, requesting to speak to a
nurse about “detox meds”. This is clear evidence that
by early in the morning of December 12, Mr. Pratt
was going into alcohol withdrawal. In any event,
this kiosk request was not responded to until two
days later.
16. At 12:19pm on December 12, Mr. Pratt submitted a second kiosk request, as follows:
MY NAME IS TOMMY PRATT I
CAME
IN
YESTERDAY
AND
STARTED HAVING WITHDRAWLS
[sic] I NEED TO TRY AND GET SOME
DETOX MEDS
THANKYOU
17. At approximately 1:05pm on December 12,
2015, Nurse Karen Canter, an employee of Defendant
ARMOR and agent of TCSO acting under color of
state law and within the scope of her employment,
conducted a drug and alcohol withdrawal assessment

52a
of Mr. Pratt. As part of this assessment, Mr. Pratt
indicated that he had a serious alcohol problem. In
particular, Mr. Pratt advised Nurse Canter that he
had a habit of drinking 15- 20 beers a day for “at
least” the past ten (10) years. The assessment tool
further indicates that Mr. Pratt was experiencing:
“constant nausea, frequent dry heaves and vomiting”,
moderate tremors, anxiety, restlessness, “drenching
sweats” and “severe diffuse aching of joints/muscles.”
18. At approximately 1:48pm on December 12,
Mr. Pratt was admitted to the Jail’s medical unit.
Upon admission, Nurse Gracie Beardon, an employee of Defendant Armor and agent of the TCSO
acting under color of state law and within the scope
of her employment, conducted a “mental health infirmary admission assessment.” Nurse Beardon
noted that Mr. Pratt’s admitting diagnosis was “Detox”. Nurse Beardon additionally noted that, upon
admission, Mr. Pratt was nauseated, slumped over,
anxious, fearful and “unsteady on his feet”. Nurse
Beardon specifically acknowledged that Mr. Pratt
posed a “risk for injury” due to his detoxification
and “high blood pressure”.
19. On December 13, 2015, Mr. Pratt was placed
on seizure precautions, which included an order that
his vital signs be taken every eight (8) hours.
20. At approximately 2:08am on December 14,
2015, another drug and alcohol withdrawal assessment was conducted. This time, the assessment was
done by Nurse Patricia Deane, an employee of Defendant ARMOR and agent of the TCSO acting under color of state law and within the scope of her employment. This December 14 drug-and- alcohol withdrawal assessment clearly indicated that Mr. Pratt’s

53a
symptoms were worsening and becoming ever more
severe. In this regard, the December 14 assessment
tool indicates that Mr. Pratt was experiencing:
“constant nausea, frequent dry heaves and
vomiting”, “severe” tremors “even with arms not
extended”, “acute panic states as seen in severe
delirium or acute schizophrenic reactions”,
restlessness, “drenching sweats”, “continuous hallucinations” and disorientation for “place/or person”.
21. This assessment indicated that Mr. Pratt was
suffering from delirium tremens, a life-threatening
condition related to alcohol withdrawal, which typically requires immediate hospitalization. See, e.g.,
Speers v. County of Berrien, 196 F. App'x 390, 395
(6th Cir. 2006) (“delirium tremens is a serious
medical condition, which generally requires immediate hospitalization…”); Thompson v. Upshur
Cnty., Tex, 245 F.3d 447, 457 (5th Cir. 2001) (“delirium tremens is a serious medical need”); Deaton v.
McMillin, No. 3:08-CV-763-DPJ-FKB, 2012 WL
393053, at *2-3 (S.D. Miss. Feb. 6, 2012).
22. To any moderately trained medical professional, it would be obvious that Mr. Pratt was suffering from delirium tremens. Nevertheless, despite the
obvious severity and emergent nature of Mr. Pratt’s
deteriorating condition, he was not sent to a hospital
or even seen by a physician. Indeed, Nurse Deane did
not contact a physician, despite the fact that the assessment tool itself mandated that she do so. At this
point, Mr. Pratt’s detoxification was not being supervised by a physician, as required by Armor policy/National Commission on Correctional Healthcare
(“NCCHC”) standards. No vital signs were taken. No
blood tests were performed. Nurse Deane was

54a
deliberately indifferent to Mr. Pratt’s serious medical
needs.
23. At approximately 3:44am on December 14,
2015, an unidentified ARMOR employee, acting
within the scope of his/her employment and under
color of state law, attempted to take Mr. Pratt’s vital
signs. This ARMOR employee noted that when
he/she encountered Mr. Pratt he was “tearing up”
his cell and deliriously stating that he was “locked
in the store”. Mr. Pratt was so disoriented and panicked that he could not sit still to have his vitals
taken. Again, these were clear symptoms of delirium
tremens, an emergent and life-threatening condition,
requiring immediate hospitalization. It was apparent
that Mr. Pratt’s withdrawal-related psychosis was
getting worse to the point that he posed an imminent
threat of self-harm. Still, the ARMOR employee did
nothing to assist Mr. Pratt. He was not taken to a
hospital. He was not restrained. He did not see a physician or psychiatrist. He was not placed on suicide
watch. No blood tests were performed. Rather, Mr.
Pratt was left to his own devices, while in the throes
of a dangerous withdrawal-related mental breakdown (likely, delirium tremens), alone in a cell. This,
too, was deliberate indifference to a serious medical
need.
24. Despite the fact that Mr. Pratt was to have his
vital signs taken every eight (8) hours, the ARMOR
employees responsible for this task never once recorded a complete set of vital signs for Mr. Pratt. No
vital signs at all were recorded on December 14,
15 or 16. This failure not only violated policy and protocol, but substantively deprived Mr. Pratt’s “caretakers” at the Jail of necessary information in monitoring his condition. Indeed, frequent vital signs are

55a
essential in monitoring the health and assessing the
needs of patients with delirium tremens. ARMOR’s
inability or refusal to take the minimal step of assessing vital signs is additional evidence of deliberate
indifference to Mr. Pratt’s serious medical needs.
25. There are two “Medical Sick Call Notes”,
dated December 14, 2015, in the “official” Armor
medical chart, which were purportedly recorded by
Dr. Curtis McElroy. Assuming that Dr. McElroy did
see Mr. Pratt on December 14, as represented in the
notes, the information in those notes provides additional evidence of deliberate indifference.
26. According to the “December 14” note, Dr.
McElroy saw Mr. Pratt at around 10:30am. In the December 14 note, Dr. McElroy states:
Pt seen and evaluated. Came in 12/11/15
with alcohol abuse and placed on Librium protocol for alcohol withdrawal. Pt
switched to valium and received first
dose this morning. Pt reported to be
found on floor pulling up tile with approximately 2cm forehead laceration.
Small, < 1cm laceration left lateral elbow
area and a laceration < 1cm on right mid
right posterior forearm. Some scratches
on dorsum of nose. No other facial injury.
Pt awake, confused, talking about
what movie are we watching tonight.
No history of witnessed fall or pt inflicting injury to himself. Pool of blood under sink in cell.
(emphasis added). The information that Mr. Pratt,
who was known to be detoxing, was found on the
floor, with a “pool of blood” under the sink, and

56a
“pulling up tile” after suffering some sort of head injury, would be information that even a layperson
would recognize as an emergency medical situation.
Further, there was additional information, in the
medical record, from earlier that morning, that Mr.
Pratt was continuously vomiting, hallucinating, suffering from severe tremors and was in an acute
panic state. All of this evidence pointed to delirium
tremens.
27. Assuming Dr. McElroy did see Mr. Pratt at
10:30am on December 14, it was obvious that Mr.
Pratt was experiencing life-threatening withdrawal
(delirium tremens) and/or brain injury, and needed to
be transferred immediately to a licensed acute care
facility. Dr. McElroy’s failure to send Mr. Pratt to a
hospital evinces deliberate indifference to his serious
and obvious medical and mental health needs. Indeed, Dr. McElroy’s failure to send Mr. Pratt to the
hospital under these conditions was a violation of the
minimal standards of the NCCHC (J-G-06), which
TCSO and Armor have adopted as policy. In addition,
Dr. McElroy did not provide Mr. Pratt with any neurological diagnostics or consult, despite the obvious
need. And Dr. McElroy did not refer Mr. Pratt to a
psychiatrist, despite the obvious need. He did not order vital signs be taken or that Mr. Pratt’s blood be
tested. These failures too are evidence of deliberate
indifference to Mr. Pratt’s serous medical and mental
health needs.
27. Additionally, assuming that Dr. McElroy saw
Mr. Pratt at 10:30am on December 14, 2015, there is
no explanation as to why he waited over eight (8)
hours after Nurse Deane’s dire assessment, and
nearly seven (7) hours after the failed attempt to take
Mr. Pratt’s vital signs, to lay eyes on this patient. It

57a
is unconscionable that Mr. Pratt was left to suffer in
his cell for this period of time without even seeing a
physician. Each passing hour was another lost opportunity to get Mr. Pratt to an emergency room to receive the level of care and assessment he obviously
needed. With each passing hour without this ERlevel care, Mr. Pratt was inching closer to a medical
calamity that would alter the rest of his, and his family’s, life.
28. Nurse Margarita Brown, an employee of Defendant ARMOR and agent of TCSO acting under
color of state law and within the scope of her employment, encountered Mr. Pratt in the medical unit at
around 4:07pm on December 14. Nurse Brown reported that Mr. Pratt was “angry”, “anxious” and
“confused”; and staring and “reaching into space.”
Nurse Brown further noted that Mr. Pratt lacked
judgment and had “impaired short term memory.”
Lastly, Nurse Brown charted that Mr. Pratt needed
assistance with “activities of daily living.” Again, Mr.
Pratt was not sent to the hospital in deliberate indifference to his serious medical needs.
29. The failures of the medical staff -- beginning
with Nurse Deane’s assessment and continuing
through Dr. McElroy’s dubious “evaluation” and
Nurse Brown’s observations -- to send Mr. Pratt to an
emergency room for medical intervention, or even order neurological testing or a psychiatric visit, constitutes deliberate indifference. And this deliberate indifference was a proximate cause of Mr. Pratt’s unnecessary and prolonged pain and suffering; continuing and permanent disability; and medical expenses.
30. At approximately 8:49am on December 15,
2015, Kathy Loehr, a purported “Licensed

58a
Professional Counselor” or “LPC”, conducted an initial mental health evaluation of Mr. Pratt. During
the evaluation, Mr. Pratt reported that he was “detoxing from alcohol.” Ms. Loehr observed that Mr.
Pratt was “shaky” and had “difficulty following directions”. Mr. Pratt was making “slow, shaky movements.” Loehr charted that Pratt “present[ed] with a
wound on his forehead from a self inflicted injury yesterday” and that the wound “[a]ppear[ed]
unintentional” as Pratt was “detoxing and did
not appear oriented yesterday.” Notably, Ms.
Loehr was unable to complete her evaluation because
Mr. Pratt had deteriorated to the point that he had
“difficulty answering questions.” Mr. Pratt was
clearly still disoriented as he stated his mistaken belief that he was at a detox center and that it was Sunday (when, in fact, December 15, 2015 was a Tuesday). He appeared lethargic with poor eye contact.
His memory, insight, judgment and concentration were all noted to be “poor”.
31. Despite Mr. Pratt’s obvious signs and symptoms of brain injury, coupled with his ongoing struggle with the effects of delirium tremens, Ms. Loehr
did not send Mr. Pratt to a hospital. Mr. Pratt was
not seen by a physician. There is no indication that
Ms. Loehr even contacted a physician. Instead,
demonstrating disregard for the seriousness of the
situation, Ms. Loehr educated Mr. Pratt “on getting clothes” and reportedly “encouraged vital signs
to get medication.” In other words, Ms. Loehr provided no care at all, and did nothing to assure that
Mr. Pratt’s emergent and life-threatening condition
was appropriately addressed. This was deliberate indifference to a serious medical need.

59a
32. There is also a “Medical Sick Call” note, dated
December 15, 2015, recorded by Dr. McElroy, in the
version of Mr. Pratt’s chart later sent to Saint John.
According to the December 15 note, which is time
stamped at 3:40pm, Mr. Pratt was reported to “have
been found underneath sink [in his cell] with
laceration [on] mid forehead.” Taking the December 15 note at face value, coupled with the known history of Mr. Pratt’s symptoms of delirium tremens
and/or brain injury, Dr. McElroy should have, again,
sent Mr. Pratt to a hospital on December 15. His failure to do so was yet another instance of deliberate
indifference to a serious medical need.
33. At approximately 12:00am on December 16,
2016, Nurse LeeAnn Bivins, an employee of Defendant ARMOR and agent of TCSO acting under color of
state law and within the scope of her employment,
observed that Mr. Pratt “WOULD NOT GET
UP…..” However, Nurse Bivins failed to check Mr.
Pratt’s vital signs, including his pulse and respiration.
34. Just before 1:00am on December 16, 2015, a
TCSO Detention Officer (“D.O.”) discovered Mr. Pratt
“lying on [his] bed [and] not moving.” The D.O. called
for a nurse. Angela McCoy, a Licensed Practical
Nurse (or “LPN”), an employee of Defendant ARMOR
and agent of TCSO acting under color of state law and
within the scope of her employment, responded. Upon
entering Mr. Pratt’s cell, Nurse McCoy found that he
had no pulse or respiration. He was completely
unresponsive. She initiated CPR and called a “medical emergency” at around 1:00am. Shortly thereafter, first responders from the fire department and
EMSA arrived, and continued CPR. Through these
measures, Mr. Pratt was resuscitated at around

60a
1:15am, and was rushed to Saint John Medical Center in Tulsa.
35. According to the EMSA Report, Mr. Pratt had
suffered a cardiac arrest. In pertinent part, the narrative portion of the EMSA Report states: (A) “Jail
Medical Staff report ‘[Mr. Pratt] hit his head 4 days
ago, and has been non-verbal and lethargic ever
since” ; (B) “Staff reports [Pratt] has been going
through withdrawals, and been on suicide watch as
well”; (C) “[Pratt] has a large hematoma to his forehead, that staff reports ‘[i]s from his fall 4 days
ago’”.
36. Mr. Pratt was admitted to Saint John, where
he remained until January 1, 2016. Upon discharge,
Mr. Pratt was diagnosed with: (A) cardiopulmonary
arrest (PEA) secondary to presumed seizure during
incarceration; (B) acute renal failure: Secondary to
hypotension and Rhabdomyolysis; (C) Todd's paralysis; (D) agitation; (E) anoxic brain injury; (F) AKI:
Secondary to hypotension and rhabdomyolysis; (G)
hyponatremia; (H) transaminitis: Acute; and (I) Head
laceration: Acute.
37. Before Mr. Pratt was admitted to the Jail on
December 11, 2015, he had no history of seizure disorder, brain damage or severe mood swings. Since
suffering from untreated brain injury and delirium
tremens which led to cardiac arrest/severe seizures
at the Jail, Mr. Pratt is permanently disabled. He
continues to suffer from severe seizure disorder,
memory loss, extreme mood swings and anger and
verbal/communication delays/deficits. He is now unable to work and has been homeless at times. He requires assistance with everyday life activities. He is
incapable of safely living on his own. Mr. Pratt is just

61a
38 years old. At the time of his incarceration, and resulting injuries, Mr. Pratt was 35.
38. Mr. Pratt is permanently disabled and has incurred and will continue to incur lost wages and medical expenses. In addition, Mr. Pratt has suffered and
will continue to suffer physical and mental pain and
anguish. These injuries and damages are a direct and
proximate cause of Defendants’ deliberate indifference and negligence as described supra.
B. The Jail’s Unconstitutional Health Care
Delivery System / Policies and Customs
39. The deliberate indifference to Mr. Pratt’s serious medical needs, his mental health and his safety,
as summarized supra, was in furtherance of and consistent with: a) policies, customs, and/or practices
which TCSO promulgated, created, implemented or
possessed responsibility for the continued operation
of; and b) policies, customs, and/or practices which
ARMOR developed and/or had responsibility for implementing.
40. There are longstanding, systemic deficiencies
in the medical and mental health care provided to inmates at the Tulsa County Jail. Former Sheriff Glanz
has long known of these systemic deficiencies and the
substantial risks they pose to inmates like Mr. Pratt
but failed to take reasonable steps to alleviate those
deficiencies and risks.
41. For instance, in 2007, the NCCHC, a corrections health accreditation body, conducted an on-site
audit of the Jail’s health services program. At the
conclusion of the audit, NCCHC auditors reported serious and systemic deficiencies in the care provided
to inmates, including failure to perform mental

62a
health screenings, failure to fully complete mental
health treatment plans, failure to triage sick calls,
failure to conduct quality assurance studies, and failure to address health care needs in a timely manner.
NCCHC made these findings of deficient care despite
Former Sheriff Glanz’s/TCSO’s efforts to defraud the
auditors by concealing information and falsifying
medical records and charts.
42. Former Sheriff Glanz failed to change or improve any health care policies or practices in response
to NCCHC’s findings.
43. There is a long-standing failure to secure adequate mental health care, and to properly classify
and protect inmates with obvious and serious mental
health needs. For example, in 2009, TCSO was cited
by the Oklahoma State Department of Health for violation of the Oklahoma Jail Standards in connection
with the suicide death of an inmate with schizophrenia.
44. In August of 2009, the American Correctional
Association (“ACA”) conducted a “mock audit” of the
Jail. The ACA’s mock audit revealed that the Jail was
non-compliant with “mandatory health standards”
and “substantial changes” were suggested. Based on
these identified and known “deficiencies” in the
health delivery system at the Jail, the Jail Administrator sought input and recommendations from Elizabeth Gondles, Ph.D. (“Dr. Gondles”). Dr. Gondles
was associated with the ACA as its medical director
or medical liaison. After reviewing pertinent documents, touring the Jail and interviewing medical and
correctional personnel, on October 9, 2009, Dr. Gondles generated a Report, entitled “Health Care Delivery Technical Assistance” (hereinafter, “Gondles

63a
Report”). The Gondles Report was provided to the
Jail Administrator, Michelle Robinette. As part of her
Report, Dr. Gondles identified numerous “issues”
with the Jail’s health care system, as implemented by
the Jail’s former medical provider, CHC. After receiving the Gondles Report, Chief Robinette held a conference -- to discuss the Report -- with the Undersheriff, Administrative Captain and CHC/CHM.
45. Among the issues identified by Dr. Gondles, as
outlined in her Report, were: understaffing of medical personnel due to CHM misreporting the average
daily inmate population; (b) deficiencies in “doctor/PA coverage”; (c) a lack of health services oversight and supervision; (d) failure to provide new
health staff with formal training; (e) delays in inmates receiving necessary medication; (g) nurses failing to document the delivery of health services; (h)
systemic nursing shortages; (h) failure to provide
timely health appraisals to inmates; and (i) 313
health-related grievances within the past 12 months.
Dr. Gondles concluded that “[m]any of the health service delivery issues outlined in this report are a result
of the lack of understanding of correctional
healthcare issues by jail administration and
contract oversight and monitoring of the private provider.” Based on her findings, Dr. Gondles “strongly
suggest[ed] that the Jail Administrator establish a
central Office Bureau of Health Services” to be
staffed by a TCSO-employed Health Services Director (“HSD”). According to Dr. Gondles, without such
an HSD in place, TCSO could not properly monitor
the competency of the Jail’s health staff or the adequacy of the health care delivery system.
46. Nonetheless, TCSO leadership chose not to
follow Dr. Gondles’ recommendations. TCSO did not

64a
establish a central Office Bureau of Health Services
nor hire the “HSD” as recommended. Id.
47. On October 28, 2010, Assistant District Attorney Andrea Wyrick wrote an email to Josh Turley,
TCSO’s “Risk Manager”. In the email, Ms. Wyrick
voiced concerns about whether the Jail’s medical
provider, Defendant CHMO, a subsidiary of CHC,
was complying with its contract. Ms. Wyrick further
made an ominous prognosis: “This is very serious,
especially in light of the three cases we have now —
what else will be coming? It is one thing to say we
have a contract ... to cover medical services… It is
another issue to ignore any and all signs we receive of possible [medical] issues or violations of
our agreement with [CHC] for [health] services in
the jail. The bottom line is, the Sheriff is statutorily … obligated to provide medical services.”
(emphasis added).
48. NCCHC conducted a second audit of the Jail’s
health services program in 2010. After the audit
was completed, the NCCHC placed the Tulsa
County Jail on probation.
49. NCCHC once again found numerous serious
deficiencies with the health services program. As
part of the final 2010 Report, NCCHC found, inter
alia, as follows: “The [Quality Assurance] multidisciplinary committee does not identify problems, implement and monitor corrective action, nor study its effectiveness”; “There have been several inmate deaths
in the past year…. The clinical mortality reviews
were poorly performed”; “The responsible physician
does not document his review of the RN’s health assessments”; “the responsible physician does not conduct clinical chart reviews to determine if clinically

65a
appropriate care is ordered and implemented by attending health staff”; “…diagnostic tests and specialty consultations are not completed in a timely
manner and are not ordered by the physician”; “if
changes in treatment are indicated, the changes are
not implemented…”; “When a patient returns from
an emergency room, the physician does not see the
patient, does not review the ER discharge orders, and
does not issue follow- up orders as clinically needed”;
and “… potentially suicidal inmates [are not] checked
irregularly, not to exceed 15 minutes between checks.
Training for custody staff has been limited. Follow up
with the suicidal inmate has been poor.”
50. Former Sheriff Glanz only read the first two or
three pages of the 2010 NCCHC Report. Former
Sheriff Glanz is unaware of any policies or practices
changing at the Jail in response to 2010 NCCHC Report.
51. Over a period of many years, Tammy Harrington, R.N., former Director of Nursing at the Jail, observed and documented many concerning deficiencies
in the delivery of health care services to inmates. The
deficiencies observed and documented by Director
Harrington include: chronic failure to triage inmates’
requests for medical and mental health assistance; a
chronic lack of supervision of clinical staff; and repeated failures of medical staff to alleviate known
and significant deficiencies in the health services program at the Jail.
52. On September 29, 2011, the U.S. Department
of Homeland Security’s Office of Civil Rights and
Civil Liberties (“CRCL”) reported its findings in connection with an audit of the Jail’s medical system –
pertaining to U.S. Immigration and Customs

66a
Enforcement (“ICE”) detainees -- as follows: “CRCL
found a prevailing attitude among clinic staff of indifference….”; “Nurses are undertrained. Not documenting or evaluating patients properly.”; “Found
one case clearly demonstrates a lack of training, perforated appendix due to lack of training and supervision”; “Found two … detainees with clear mental/medical problems that have not seen a doctor.”;
“[Detainee] has not received his medication despite
the fact that detainee stated was on meds at intake”;
“TCSO medical clinic is using a homegrown system of
records that ‘fails to utilize what we have learned in
the past 20 years”.
53. Director Harrington did not observe any
meaningful changes in health care policies or practices at the Jail after the ICE-CRCL Report was issued.
54. On the contrary, less than 30 days later the
ICE-CRCL Report was issued, on October 27, 2011
another inmate, Elliott Earl Williams, died at the
Jail as a result of truly inhumane treatment and
reckless medical neglect which defies any standard of
human decency. A federal jury has since entered a
verdict holding Sheriff Regalado liable in his official
capacity for the unconstitutional treatment of Mr.
Williams.
55. In the wake of the Williams death, which was
fully investigated by TCSO, Former Sheriff Glanz
made no meaningful improvements to the medical
system. This is evidenced by the fact that yet another
inmate, Gregory Brown, died due to grossly deficient
care just months after Mr. Williams.
56. On November 18, 2011 AMS-Roemer, the
Jail’s own retained medical auditor, issued its Report

67a
to Former Sheriff Glanz finding multiple deficiencies
with the Jail’s medical delivery system, including
“[documented] deviations [from protocols which] increase the potential for preventable morbidity and
mortality.” AMS-Roemer specifically commented on
no less than six (6) inmate deaths, finding deficiencies in the care provided to each.
57. It is clear that Former Sheriff Glanz did little,
if anything, to address the systemic problems identified in the November 2011 AMS-Roemer Report, as
AMS- Roemer continued to find serious deficiencies
in the delivery of care at the Jail. For instance, as
part of a 2012 Corrective Action Review, AMS-Roemer found “[d]elays for medical staff and providers to
get access to inmates,” “[n]o sense of urgency attitude
to see patients, or have patients seen by providers,”
failure to follow NCCHC guidelines “to get patients
to providers,” and “[n]ot enough training or supervision of nursing staff.”
58. In November 2013, BOCC/TCSO/Former Sheriff Glanz retained ARMOR as the new private medical provider. However, this step has not alleviated
the constitutional deficiencies with the medical system. Medical staff is still undertrained and inadequately supervised and inmates are still being denied
timely and sufficient medical attention. Bad medical
and mental health outcomes have persisted due to inadequate supervision and training of medical staff,
and due to the contractual relationship between
BOCC/TCSO/Former Sheriff Glanz and ARMOR
(which provides financial disincentives for the transfer of inmates in need of care from an outside facility).
Former Sheriff Glanz and ARMOR have known of the
deficiencies, and the substantial risks posed to

68a
inmates like Mr. Pratt, but have failed to take reasonable steps to alleviate the risks.
59. In February 2015 an auditor/nurse hired by
Tulsa County/TCSO, Angela Mariani, issued a report
focused on widespread failures by Armor Correctional Health Services, Inc. to abide by its $5 million
annual contract with the County. Mariani also wrote
three (3) memos notifying TCSO that ARMOR failed
to staff various medical positions in the Jail and recommending that the county withhold more than
$35,000 in payments. Her report shows that Jail
medical staff often failed to respond to inmates’ medical needs and that ARMOR failed to employ enough
nurses and left top administrative positions unfilled
for months. Meanwhile, medical staff did not report
serious incidents including inmates receiving the
wrong medication and a staff member showing up
“under the influence.”
60. As alleged herein, there are deep-seated and
well-known policies, practices and/or customs of systemic, dangerous and unconstitutional failures to
provide adequate medical and mental health care to
inmates at the Tulsa County Jail. This system of deficient care -- which evinces fundamental failures to
train and supervise medical and detention personnel
-- created substantial, known and obvious risks to the
health and safety of inmates like Mr. Pratt. Still,
Sheriff Glanz and ARMOR have failed to take reasonable steps to alleviate the substantial risks to inmate health and safety, in deliberate indifference to
Mr. Pratt’s physical health, mental health, and
safety; and, ultimately, in deliberate indifference to
to his serious medical needs.

69a
CLAIMS FOR RELIEF
FIRST CLAIM FOR RELIEF
Deliberate Indifference to a Serious Medical
Need in Violation of the Eighth and/or Fourteenth Amendment to the Constitution of the
United States (42 U.S.C. § 1983)
A. The Underlying Violations of the Constitution
61. Plaintiff re-alleges and incorporate by reference paragraphs 1 to 60, as though fully set forth
herein.
62. On information and belief, Mr. Pratt was not a
convicted prisoner at the time of the events at issue.
Nonetheless, in an abundance of caution, Plaintiff
has pled this claim under the 14th and 8th Amendments to the United States Constitution.
63. As described herein (See Factual Allegations(A)), Defendants McElroy, Deane, Loehr and
the unidentified nurse who encountered Mr. Pratt
at approximately 3:44am on December 14, 2015,
knew, or it was objectively obvious, that Mr. Pratt
was at significant risk of serious injury and harm.
64. As described herein (See Factual Allegations(A)), Defendants McElroy, Deane, Loehr and
the unidentified nurse who encountered Mr. Pratt
at approximately 3:44am on December 14, 2015 disregarded these known or objectively obvious risks to
Mr. Pratt’s health and safety.
65. As described herein (See Factual Allegations(A)), Defendants McElroy, Deane, Loehr and
the unidentified nurse who encountered Mr. Pratt
at approximately 3:44am on December 14, 2015’s

70a
acts and/or omissions, including but not limited to
their failure to provide Mr. Pratt with adequate
medical and mental health supervision, assessment
and treatment, and/or or to assure that Mr. Pratt received adequate medical and mental health supervision, assessment and treatment from qualified and
capable providers, constitute deliberate indifference
to Mr. Pratt’s health and safety and resulted in his
disability and significant injuries as stated herein.
66. As a direct and proximate result of Defendants McElroy, Deane, Loehr and the unidentified
nurse who encountered Mr. Pratt at approximately
3:44am on December 14, 2015’s conduct, Mr. Pratt
experienced physical pain, severe emotional distress, mental anguish, and the damages alleged
herein.
67. Mr. Pratt has incurred and will continue to incur medical expenses and lost wages as a proximate
result of Defendants McElroy, Deane, Loehr and the
unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015’s deliberate indifference.
68. The aforementioned acts and/or omissions of
Defendants McElroy, Deane, Loehr and the unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015 were reckless
and/or accomplished with a conscious disregard of
Mr. Pratt’s rights, thereby entitling Plaintiff to an
award of exemplary and punitive damages according
to proof.

71a
B. Official Capacity Liability (Sheriff Regalado)
69. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 68 as though fully set
forth herein.
70. The aforementioned acts and/or omissions of
Defendants McElroy, Deane, Loehr and the unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015 in being deliberately indifferent to Mr. Pratt’s health and safety
and violating Mr. Pratt’s civil rights were the direct
and proximate result of customs, practices, and policies which TCSO promulgated, created, implemented and/or possessed responsibility for.
71. Such policies, customs and/or practices are
specifically set forth in paragraphs 39-60, supra.
72. TCSO, through its continued encouragement,
ratification, approval and/or maintenance of the
aforementioned policies, customs, and/or practices;
in spite of their known and obvious inadequacies
and dangers; has been deliberately indifferent to inmates’, including Mr. Pratt’s, health and safety.
73. As a direct and proximate result of the aforementioned customs, policies, and/or practices, Mr.
Pratt suffered injuries and damages as alleged
herein.
C. Municipal Liability (ARMOR)
74. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 73 as though fully set
forth herein.
75. ARMOR is a “person” for purposes of 42
U.S.C. § 1983.

72a
76. At all times pertinent hereto, ARMOR was
acting under color of state law.
77. ARMOR was endowed by Tulsa County with
powers or functions governmental in nature, such
that ARMOR became an instrumentality of the
state and subject to its Constitutional limitations.
78. ARMOR was charged with implementing and
assisting in developing the policies of TCSO with respect to the medical and mental health care of inmates at the Tulsa County Jail and have shared responsibility to adequately train and supervise their
employees.
79. There is an affirmative causal link between
the aforementioned underlying violations of the
Constitution and the above-described customs, policies, and/or practices carried out by ARMOR.
80. ARMOR knew (either through actual or constructive knowledge), or it was objectively obvious,
that these policies, practices and/or customs posed
substantial risks to the health and safety of inmates
like Mr. Pratt. Nevertheless, ARMOR failed to take
reasonable steps to alleviate those risks in deliberate indifference to inmates’, including Mr. Pratt’s,
serious medical and mental health needs.
81. ARMOR tacitly encouraged, ratified, and/or
approved of the unconstitutional acts and/or omissions alleged herein.
82. There is an affirmative causal link between
the aforementioned customs, policies, and/or practices and Mr. Pratt’s injuries and damages as alleged
herein.

73a
SECOND CLAIM FOR RELIEF
Negligence
(Defendants ARMOR, McElroy, Deane and
Loehr)
83. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 82 as though fully set
forth herein.
84. ARMOR, McElroy, Deane, Loehr and the unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015, owed a duty
to Mr. Pratt, and all other inmates in custody at the
Jail, to use reasonable care to provide inmates in
need of medical attention with appropriate treatment.
85. ARMOR, McElroy, Deane, Loehr and the unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015, breached that
duty by failing to provide Mr. Pratt with prompt and
adequate medical and mental health care despite Mr.
Pratt’s obvious needs.
86. ARMOR, McElroy, Deane, Loehr and the unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015’s breaches of
the duty of care include, inter alia: failure to treat Mr.
Pratt’s serious health condition properly; failure to
conduct appropriate medical and mental health assessments; failure to create and implement appropriate medical and mental health treatment plans; failure to promptly and adequately evaluate Mr. Pratt’s
health; failure to properly monitor Mr. Pratt’s health;
failure to provide access to medical and mental
health personnel capable of evaluating and treating
his serious health needs; failure to assure that Mr.

74a
Pratt received necessary emergency care; and a failure to take precautions to prevent Mr. Pratt from injury.
87. As a direct and proximate result of ARMOR,
McElroy, Deane, Loehr and the unidentified nurse
who encountered Mr. Pratt at approximately 3:44am
on December 14, 2015’s negligence, Mr. Pratt experienced physical pain, severe emotional distress, mental anguish, and the damages alleged herein.
88. As a direct and proximate result of this negligence, Mr. Pratt has suffered, and will continue to
suffer, real and actual damages, including medical
expenses, mental and physical pain and suffering,
emotional distress, lost wages and other damages in
excess of $75,000.00.
89. ARMOR is vicariously liable for the negligence of its employees and agents.
90. ARMOR is also directly liable for its own negligence.
THIRD CLAIM FOR RELIEF
Violation of Article II § 9 and/or § 7 of the
Constitution of the State of Oklahoma
Cruel and Unusual Punishment and Deliberate Indifference
91. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 90, as though fully set
forth herein.
92. Article II § 9 of the Oklahoma Constitution
prohibits the infliction of cruel and unusual punishment. Under the Oklahoma Constitution’s Due Process Clause, Article II § 7, the right to be free from

75a
cruel and unusual punishment extends to pre-trial
detainees, like Mr. Pratt, who have yet to be convicted of a crime (in addition to convicted prisoners
who are clearly protected under Article II § 9).
93. The protections afforded to pre-trial detainees
under the Oklahoma Constitution’s Due Process
Clause, Article II § 7, include the provision of adequate mental health care and protection from assault
while in custody.
94. As set forth herein, Defendants McElroy,
Deane, Loehr and the unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015, knew, or it was obvious, that Mr.
Pratt was at significant risk of serious injury and
harm as set forth herein.
95. Defendants McElroy, Deane, Loehr and the
unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015 failed to
provide adequate medical care, mental health care
and supervision to Mr. Pratt while he was in the
Tulsa County Jail.
96. Defendants McElroy, Deane, Loehr and the
unidentified nurse who encountered Mr. Pratt at approximately 3:44am on December 14, 2015’s acts
and/or omission as alleged herein, including but not
limited to their failure to provide Mr. Pratt with adequate medical and mental health supervision, assessment and treatment, and/or to assure that Mr. Pratt
receive adequate medical and mental health supervision, assessment and treatment, constitute deliberate indifference to Mr. Pratt’s health and safety and
resulted in his disability and significant injuries as
stated herein.

76a
97. At all times relevant, the ARMOR personnel
and detention personnel described in this Complaint
were acting within the scope of their employment and
under the direct control of TCSO and/or ARMOR.
98. TCSO and ARMOR’s failure to supervise and
provide adequate mental health care and protection
to Mr. Pratt was the direct and proximate cause of
Mr. Pratt’s injuries, physical pain, severe emotional
distress, mental anguish, and all other damages alleged herein.
PRAYER FOR RELIEF
99. WHEREFORE, based on the foregoing, Plaintiffs pray that this Court grant them the relief sought
including, but not limited to, actual damages in excess of Seventy- Five Thousand Dollars ($75,000.00),
with interest accruing from date of filing of suit, punitive damages 2 in excess of Seventy-Five Thousand
Dollars ($75,000.00), reasonable attorney fees, and
all other relief deemed appropriate by this Court.
Respectfully submitted,
/s/Daniel E. Smolen
Daniel E. Smolen, OBA #19943
Robert M. Blakemore, OBA #18656
Smolen, Smolen & Roytman, PLLC
701 S. Cincinnati Ave.
Tulsa, Oklahoma 74119
P: (918) 585-2667
F: (918) 585-2669
Attorneys for Plaintiff
In accordance with federal law, Plaintiff does not assert a
claim for punitive damages against Defendant Regalado, in his
official capacity, or the BOCC.

2

